<html>
<title> - LEGISLATIVE HEARING ON H.R. 4558, TO PROVIDE GREATER CONSERVATION, RECREATION, ECONOMIC DEVELOPMENT AND LOCAL MANAGEMENT OF FEDERAL LANDS IN GARFIELD AND KANE COUNTIES, UTAH, ``GRAND STAIRCASE ESCALANTE ENHANCEMENT ACT''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       H.R. 4558, ``GRAND STAIRCASE ESCALANTE ENHANCEMENT ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, December 14, 2017

                               __________

                           Serial No. 115-32

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
         
                                __________
                                     

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-856 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0364736c43607670776b666f732d606c6e2d">[email&#160;protected]</a> 
                      
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Darin LaHood, IL                     Jimmy Gomez, CA
  Vice Chairman                      Vacancy
Daniel Webster, FL                   Raul M. Grijalva, AZ, ex officio
Jack Bergman, MI
Liz Cheney, WY
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                              ----------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, December 14, 2017......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................    11
    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     4
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Hand, Susan, General Manager and Outdoor Goods Buyer, Willow 
      Canyon Outdoor Co., Inc., Kanab, Utah......................    31
        Prepared statement of....................................    33
    Leavitt, Hon. Mike, Former Governor, State of Utah...........    13
        Prepared statement of....................................    14
    Pollock, Hon. Leland, Commission Chairperson, Board of 
      Commissioners, Garfield County, Utah.......................    18
        Prepared statement of....................................    19
    Stewart, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     6
    Varela, Vicki, Managing Director, Utah Office of Tourism, 
      Film, and Global Branding, Salt Lake City, Utah............    34
        Prepared statement of....................................    35
        Questions submitted for the record.......................    38

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    58
                                     


 
  LEGISLATIVE HEARING ON H.R. 4558, TO PROVIDE GREATER CONSERVATION, 
RECREATION, ECONOMIC DEVELOPMENT AND LOCAL MANAGEMENT OF FEDERAL LANDS 
   IN GARFIELD AND KANE COUNTIES, UTAH, ``GRAND STAIRCASE ESCALANTE 
                           ENHANCEMENT ACT''

                              ----------                              


                      Thursday, December 14, 2017

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:29 a.m., in 
room 1334, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Tipton, Westerman, 
Bergman, Bishop, Hanabusa, Lowenthal, Torres, Gallego, 
McEachin, and Brown.
    Also Present: Representative Stewart.
    Mr. McClintock. The Subcommittee on Federal Lands will come 
to order.
    I would ask unanimous consent that the gentleman from Utah, 
Mr. Stewart, be allowed to sit with the Subcommittee and 
participate in the remainder of the hearing following his 
testimony.
    Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chairman. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules. 
Unfortunately, we are probably going to be interrupted by votes 
around 10:30 a.m., so we will try to get through the testimony 
and as many questions as possible before then.
    With that, we will begin with opening statements.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Today, the Subcommittee on Federal Lands 
meets to consider H.R. 4558, the Grand Staircase Escalante 
Enhancement Act, by Congressman Chris Stewart, and co-sponsored 
by the entire Utah congressional delegation.
    The Antiquities Act of 1906 provides the President with the 
authority to designate national monuments on Federal lands 
containing ``historic landmarks, historic and prehistoric 
structures, or other objects of historic or scientific 
interest.'' The law also specified that national monuments ``be 
confined to the smallest area compatible with proper care and 
management of the objects to be protected.''
    In the original congressional debate over this bill, 
Congressman Stephens asked whether it could ever be used to 
lock up large areas of land like the Forest Reserve bill. In 
response, the bill's sponsor, Congressman Lacy, stated, 
``Certainly not. The object is entirely different. It is to 
preserve these old objects of special interests in the 
Southwest, whilst the Forest Reserve bill reserves the forests 
and the water courses.''
    President Theodore Roosevelt first used this limited 
authority to declare 1,200 acres around the Devils Tower in 
Wyoming as a national moment. Since that time, presidents have 
broadly interpreted the Antiquities Act to expand both the size 
and justifications for national monument designations.
    In 1996, President Bill Clinton, in a breathtaking abuse of 
this law, unilaterally declared 1.7 million acres of Bureau of 
Land Management lands in southern Utah as the Grand Staircase-
Escalante National Monument, without any consultation with 
members of the Utah congressional delegation, including 
Democratic Representative Bill Orton, in whose district these 
lands were located, or with Governor Mike Leavitt, who is one 
of our witnesses here today.
    Indeed, just 1 week before the announcement, the 
administration assured the state's senior Senator, Orrin Hatch, 
that leaks of their intention to issue this declaration were 
untrue and that no such action was contemplated.
    President Clinton drafted his order in secret consultation 
with leftist environmental groups. This Committee later learned 
that their objective was to make grazing and future resource 
development impossible. The action devastated the state of Utah 
and the local communities affected. It cost the Utah public 
school system hundreds of millions of dollars in future 
revenues, deprived local families of high-paying local jobs, 
and forced historic grazing permittees from these lands.
    Let me put this in perspective. Hurricane Harvey inflicted 
nearly $200 billion of damage when it slammed into Texas this 
year. The low-end, conservative estimate of economic damage 
from Clinton's Executive Order is $223 billion, just in lost 
economic activity from mineral development alone. And in 
Keystone Cops' fashion, the administration only discovered that 
their designation included 176,000 acres of land set aside for 
support of the public schools the day before they made the 
announcement.
    These abuses point to a simple truth: that no one person 
should have the authority to lock up millions of acres of land 
with the stroke of a pen. By giving Congress, and not the 
President, authority over public lands, our Constitution 
guarantees that all voices will be heard when a decision 
affecting millions of acres of land is made. Under our 
Constitution, the people expect their government to listen to 
those people most affected by local land use decisions, and not 
just out-of-state special interest groups. And they have every 
right to demand that Congress reassert its roll over management 
of the public lands on their behalf.
    This bill seeks to right this wrong and to go about 
monument designation the constitutional way: through open 
hearings, debate, and congressional action. It would create 
Utah's sixth national park, the Escalante Canyons National 
Park, and transfer Hole-in-the-Rock Road, a historically 
important Mormon pioneer trail, to the state of Utah.
    Further, it creates three new separate and distinct 
national monuments: the Grand Staircase National Monument, the 
Escalante Canyons National Monument, and the Kaiparowits 
National Monument.
    Finally, the bill would create a management council 
comprised of local officials to draft and oversee a management 
plan for the new monuments and the national park.
    We have a most distinguished panel of witnesses here today 
to discuss this bill, and I am looking forward to their 
testimony.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    Today, the Subcommittee on Federal Lands meets to consider H.R. 
4558, the Grand Staircase Escalante Enhancement Act by Congressman 
Chris Stewart and co-sponsored by the entire Utah congressional 
delegation.
    The Antiquities Act of 1906 provides the President with the 
authority to designate national monuments on Federal lands containing 
``historic landmarks, historic and prehistoric structures, or other 
objects of historic or scientific interest.'' The law also specified 
that National Monuments ``be confined to the smallest area compatible 
with proper care and management of the objects to be protected.''
    In the original congressional debate over this bill, Congressman 
Stephens asked whether it could ever be used to lock up large areas of 
land like the Forest Reserve bill. In response, its sponsor, 
Congressman Lacey, stated: ``Certainly not. The object is entirely 
different. It is to preserve these old objects of special interests in 
the Southwest, whilst the (Forest Reserve bill) reserves the forests 
and the water courses.''
    President Theodore Roosevelt first used this limited authority to 
declare 1,200 acres around the Devils Tower in Wyoming as a national 
monument. Since that time, presidents broadly interpreted the 
Antiquities Act to expand both the size and justifications for National 
Monument designations.
    In 1996, President Bill Clinton, in a breathtaking abuse of this 
law, unilaterally declared 1.7 million acres of Bureau of Land 
Management (BLM) lands in southern Utah as the Grand Staircase-
Escalante National Monument without any consultation with members of 
the Utah congressional delegation (including Democrat Representative 
Bill Orton in whose district these lands were located), or with 
Governor Mike Leavitt, who is one of our witnesses here today.
    Indeed, just 1 week before the announcement, the administration 
assured the state's senior Senator, Orrin Hatch, that leaks of their 
intention to issue this declaration were untrue and that no such action 
was contemplated.
    President Clinton drafted his order in secret consultation with 
leftist environmental groups. This Committee later learned that their 
objective was to make grazing and future resource development 
impossible. The action devastated the state of Utah and the local 
communities affected. It cost the Utah public school system hundreds of 
millions of dollars in future revenues, deprived local families of 
high-paying local jobs, and forced historic grazing permittees from 
these lands.
    Let me put this in perspective. Hurricane Harvey inflicted nearly 
$200 billion of damage when it slammed into Texas this year. The low-
end, conservative estimate of economic damage from Clinton's Executive 
Order is $223 billion--just in lost economic activity from mineral 
development alone.
    In Keystone Cops' fashion, the administration only discovered that 
their designation included 176,000 acres of land set aside for support 
of the public schools the day before the announcement.
    These abuses point to a simple truth: that no one person should 
have the authority to lock up millions of acres of land with the stroke 
of a pen. By giving Congress--and not the President--authority over 
public land, our Constitution guarantees that all voices will be heard 
when a decision affecting millions of acres of land is made.
    Under our Constitution, the people expect their government to 
listen to those people most affected by local land use decisions, and 
not just out-of-state special interest groups. And they have every 
right to demand that Congress reassert its role over management of the 
lands on their behalf.
    This bill seeks to right this wrong and to go about monument 
designation the constitutional way: through open hearings, debate and 
congressional action. It would create Utah's sixth national park, the 
Escalante Canyons National Park, and transfer ``Hole in the Rock 
Road,'' a historically important Mormon pioneer trail, to the state of 
Utah.
    Further, it creates three new separate and distinct national 
monuments: the Grand Staircase National Monument, the Escalante Canyons 
National Monument, and Kaiparowits National Monument.
    Finally, the bill would create a management council comprised of 
local officials to draft and oversee a management plan for the new 
monuments and the National Park.
    We have a most distinguished panel of witnesses here today to 
discuss this bill, and I am looking forward to their testimony. I will 
now recognize the Ranking Member for her opening statement.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for her 
opening statement.

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Chairman McClintock.
    Today, we will hear testimony on H.R. 4558, the Grand 
Staircase Escalante Enhancement Act, a bill introduced by 
Representative Stewart to ratify the boundaries of three new 
national monuments recently designated by President Trump, and 
create a new national park in southern Utah.
    Under normal circumstances, legislation to establish a new 
national park would have broad partisan support, but the 
circumstances surrounding this bill and the proposed national 
park are by no means normal.
    In 1996, President Clinton designated the Grand Staircase-
Escalante National Monument. For 20 years, communities around 
the monuments have grown, diversified, and thrived. This is a 
story we will hear from Susan Hand, the owner of Willow Canyon 
Outdoor, a small business in Kanab, Utah. Ms. Hand will also 
tell us how last week's announcements to repeal the Grand 
Staircase-Escalante and replace it with three disjointed small 
monuments threatens her business and the livelihood of many 
others in her community.
    President Trump based his action--something many people, 
including myself, believe is without legal authority--on a 
review conducted by Secretary Zinke, which my colleagues and I 
have yet to see, despite numerous requests. During this review, 
the Interior Department received 2.8 million public comments 
overwhelmingly in favor of leaving all national monuments 
intact. Secretary Zinke dismissed these comments and ultimately 
advised the President to significantly alter a number of 
existing national monuments. This recommendation was based on a 
visit to eight national monuments and their surrounding 
communities. But as we will hear from our witness today, 
Secretary Zinke refused to meet with many of the small 
businesses owners who live in the communities that depend on 
national monuments and public lands.
    It is unfortunate that taxpayer dollars were wasted on a 
report meant to justify the action beyond the scope of the 
President's authority under the Antiquities Act. Only Congress 
has the authority to shrink or rescind national monuments, 
which is why last week's proclamation is already being 
challenged in court. Some also question the timing of this 
bill, introduced without maps and is in incomplete format, just 
2 days after the President made his proclamation. In fact, I 
have maps and an exchange patent with the state of Utah that 
confirmed there was an agreement and puts this whole effort in 
question. I ask unanimous consent to put those in the record as 
part of the hearing record.
    Mr. McClintock. Without objection.
    Ms. Hanabusa. The reality is that Congress has acted on 
numerous occasions to ratify the boundary of the Clinton 
designation. In the 105th and 106th Congresses, legislation to 
exchange lands with state and local governments advanced, and 
$20 million was appropriated to purchase mining claims within 
the monument.
    Finally, I would like to point out that the panel does not 
include a witness from either the Bureau of Land Management or 
National Park Service. This is particularly troubling, given 
the fact that this bill seeks to create a national park and it 
will be managed by an unelected board primarily comprised of 
representatives from state and local government.
    Additionally, this new national park would have a purpose 
that is contradictory to the 1916 National Park Service Organic 
Act. Under these circumstances, a review by the relevant 
Federal agency is appropriate, necessary, and consistent with 
prior proceedings in the House.
    Hundreds of letters from local businesses, community 
organizations, and concerned local residents have poured in 
over the last couple of days. And I also ask unanimous consent 
to enter these letters into the hearing record, and hope that 
we will consider these concerns as we examine this bill.
    Mr. McClintock. Without objection.
    Ms. Hanabusa. With that, I yield back, Mr. Chair.

    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    Thank you, Chairman McClintock.
    Today, we will hear testimony on H.R. 4558, the Grand Staircase 
Escalante Enhancement Act, a bill introduced by Representative Stewart 
to ratify the boundaries of three new national monuments recently 
designated by President Trump and create a new national park in 
southern Utah.
    Under normal circumstances, legislation to establish a new national 
park would be applauded and showered with bipartisan accolades. But the 
circumstances surrounding this bill and the proposed national park are 
by no means normal.
    In 1996, President Clinton designated the Grand Staircase-Escalante 
National Monument. For 20 years, communities around the monument have 
grown, diversified, and thrived.
    This is the story we will hear from Susan Hand, the owner of Willow 
Canyon Outdoor, a small business in Kanab, Utah. Ms. Hand will also 
tell us how her world was turned upside down by last week's 
announcement to repeal the Grand Staircase-Escalante and replace it 
with three disjointed new monuments.
    President Trump based his action--something that many people, 
including myself, believe to be illegal--on a sham review conducted by 
Secretary Zinke. During this review, the Interior Department received 
2.8 million public comments overwhelmingly in favor of leaving all 
national monuments intact. Secretary Zinke dismissed these comments as 
the product of an organized campaign and ultimately ended up advising 
the President to abolish several existing national monuments.
    This recommendation was based on a visit to eight national 
monuments, but as we will hear from our witness today, he refused to 
meet with many of the small business owners who live in the communities 
that depend on national monuments and public lands. Leaving us to 
wonder if the decision was already made and the review was nothing more 
than window dressing.
    It is unfortunate that so many taxpayer dollars had to be wasted on 
a report meant to justify an action that is so clearly illegal. The 
Antiquities Act does not give the President the authority to shrink or 
rescind national monuments--only Congress has this authority, which is 
why last week's proclamation is already being challenged in court.
    It also makes me question the timing of this piece of legislation. 
The Utah delegation had 20 years to file legislation to redo the 
boundaries of this monument. Why introduce this bill without maps and 
in an incomplete format just 2 days after the President makes a 
proclamation?
    The reality is that Congress has acted on numerous occasions to 
ratify the boundary of the Clinton designation. Both the 105th and 
106th Congresses advanced legislation to exchange land with state and 
local governments and even appropriated $20 million to purchase mining 
claims within the monument.
    With the legal status of President Trump's designation in limbo, it 
seems like any legislation that deals with Grand Staircase-Escalante 
should wait for judicial review. In fact, I have maps and an exchange 
patent with the state of Utah that confirm there was an agreement and 
puts this whole effort into question. I ask unanimous consent that 
these records are part of the hearing record.
    While today's witness panel includes several people impacted by 
this legislation, I would like to point out that the panel does not 
include a witness from either the Bureau of Land Management or the 
National Park Service. This is particularly troubling given the fact 
that this bill purports to create a national park that will be managed 
by an unelected board made primarily of representatives from state and 
local government. It is also troubling given the fact that this new 
national park would have a purpose that is diametrically opposed to the 
1916 National Park Service organic act. This is without precedent and I 
can't think of a reason why a proposal this dramatic should be 
considered without review by the relevant Federal agency.
    Hundreds of letters from local businesses, community organizations, 
and concerned local residents have poured in over the last couple of 
days. I ask unanimous consent to enter these letters into the hearing 
record and hope that we consider these concerns as we examine this 
bill.

    With that I yield back.

                                 ______
                                 

    Mr. McClintock. Thank you.
    The Chair now recognizes the Chairman of the Natural 
Resources Committee, Congressman Rob Bishop of Utah.
    Mr. Bishop. Mr. Chairman, if it is OK with you, because we 
do have votes coming up, I do have an opening statement, but 
can we hear from Congressman Stewart first and then reserve the 
right to give that opening statement afterwards?
    Mr. McClintock. Without objection.
    The Chair is now pleased to recognize Congressman Chris 
Stewart of Utah.

   STATEMENT OF THE HON. CHRIS STEWART, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Stewart. Thank you.
    And to my colleagues, Chairman Bishop, Chairman McClintock, 
and Ranking Member Hanabusa, thank you for letting me come and 
speak to you about a bill that is extremely important to my 
district, H.R. 4558, the Grand Staircase Escalante Enhancement 
Act.
    As has already been stated here, over 20 years ago, 
President Clinton stood in the state of Arizona, he didn't come 
to Utah, he stood in Arizona, and with the stroke of a pen, 
using the Antiquities Act, he declared nearly 2 million acres 
of land in Utah as the Grand Staircase-Escalante National 
Monument.
    I am pleased that my friend and a man that I greatly 
admire, Secretary Leavitt, who was a governor during this time, 
will enlighten us on this episode and, I think, share some of 
his insights into the deceit and the deception that we were 
subject to.
    The Federal Government promised that the monument would 
take little away and, instead, create a boom of tourism in the 
community surrounding the monument. Over two decades later, we 
know that while there has been some increase in tourism, it has 
not been enough to economically sustain these communities. And 
let me illustrate that, because that is such an important 
point.
    In 2015, Garfield County was forced to declare a state of 
emergency based on rapidly declining school enrollment. Simply 
put, their schools were dying because families could not stay 
in the county. They couldn't stay because there were so few 
jobs left capable of sustaining a family.
    Tourism alone is not able to sustain these communities. I 
support tourism. I am proud of my state. I would love for 
everyone in the country and around the world to come and enjoy 
this beautiful state of Utah, but this is a matter of common 
sense. Name me a job that you can sustain a family on working 
in the tourism industry from May to October.
    Now, some people have done really well, primarily business 
owners. I would ask you to ask them, how much do you pay your 
employees? How much do you pay your waitresses and those who 
are making up beds in hotels? Because I promise you, it is not 
enough to raise a family. And some say that this threatens 
business, creating this national park. That is just silly. How 
in the world does creating a national park in some way endanger 
tourism? In fact, our intent here is to do exactly the 
opposite, and that is to foster and to increase tourism.
    The situation has largely been forced upon residents by a 
misguided Federal policy, reminding us once again that 
Washington has a bad habit of drafting policies without giving 
local communities a seat at the table.
    Just this morning, I was reminded of some comments by 
elites in Hollywood and corporate CEOs who are being dishonest 
with people about this. I think many of these couldn't find 
this area on a map if they had to. They have never been to 
Utah. Some of them haven't had a conversation with anyone that 
is impacted by this in the local communities.
    I spent nearly 5 years meeting with local elected officials 
in an effort to strike a balance between conserving the beauty 
in Garfield and Kane Counties, while also providing access and 
economic growth for the local economy.
    The key to success in this region is finding creative 
solutions that benefit both tourism and natural resource 
industries, while preserving our western culture. This act does 
that. Specifically, it creates three new separate national 
monuments, creates a management council, transfers a 
historically significant trail to the state of Utah, and 
creates a new national park.
    Let me take just a moment to explain the significant 
sections of this bill. First, it creates, as I said, three 
national monuments, preserving over 1 million acres of Federal 
land in Utah, while also allowing access for hunting, gazing, 
fishing, and trapping.
    Second, it creates a management council comprised of local 
officials to draft and oversee a management plan for the new 
monuments. This is an unprecedented move that will give local 
leaders a powerful voice and a seat at the table. And by the 
way, this is a county that 93 percent of it is controlled by 
the Federal Government. Why in the world would anyone object to 
giving the local community a voice in how it is managed?
    Third, the bill transfers Hole-in-the-Rock to the state of 
Utah to be preserved. This road is very historical and 
significant to Mormon pioneers, and it is only fitting that 
Utah own and preserve and manage this historically significant 
area.
    And last, the legislation creates Utah's sixth national 
park, the Escalante Canyons National Park. This new park will 
be a win for conservation and a win for access and it will be a 
win for the local communities. It will increase tourism, giving 
a much needed boost to the local economy, while giving locals a 
voice in their own backyard.
    In addition, the national park provides for infrastructure 
spending, enhancing visitors' experience by making resources 
available for things such as trails, restrooms, and roads.
    There is a reason I live in Utah. I love Utah. I could live 
anywhere in the world, just like any one of us could. I chose 
to live in Utah because I love to hike, rock climb, ski, and 
all the things that we enjoy there. I want to preserve that. 
This bill gives us an opportunity to do that. It truly is a 
win-win situation. And I urge my colleagues on both sides of 
the aisle to support it.
    With that, Mr. Chairman, I yield back.
    Mr. McClintock. Thank you very much.
    Are there any questions for Congressman Stewart?
    Seeing none, we thank you for your testimony. Oh, all 
right, then we will do a round of questions, and I will begin.
    Congressman Stewart, did you just say that 93 percent of 
the land in this county is held by the Federal Government?
    Mr. Stewart. Yes, sir, that is true. Ninety-three percent 
of Garfield County is federally owned.
    Mr. McClintock. So, that is 93 percent that is off the tax 
rolls.
    Mr. Stewart. That's exactly right.
    Mr. McClintock. And what impact did this designation have 
on the 93 percent of the land in the county that the Federal 
Government holds?
    Mr. Stewart. Well, can you imagine being a locally elected 
official who is responsible for roads, schools, and all the 
services that a community needs in order just to survive, and 
having 93 percent of your tax base taken out from underneath 
you? It is incredibly difficult for them. You will hear from 
some of our locally elected officials, and what it does is it 
leaves them coming to Washington, DC, and constantly begging 
for help, because they don't have the authority or the ability 
themselves to manage their own affairs. It is all at the whim 
of the Federal Government.
    Mr. McClintock. So, because this Federal land was off the 
tax rolls, obviously, local governments are getting no tax 
revenues from it. Was there any kind of productive activity on 
these lands prior to the designation?
    Mr. Stewart. Yes, there was.
    Mr. McClintock. What kind of commercial activities was the 
Federal land supporting?
    Mr. Stewart. Well, for example, in Utah, we used to have a 
thriving timber industry. It has been decimated because of some 
of these policies. We had the prospect of mineral development. 
That has been completely taken off the table because of some of 
these policies.
    Mr. McClintock. So, even though those lands were held by 
the Federal Government and off the local tax rolls, they were 
still able to be put to productive use for the surrounding and 
for the remaining community in this region, correct?
    Mr. Stewart. That is exactly right, Mr. Chairman.
    Mr. McClintock. And what did the designation do to that?
    Mr. Stewart. As I said, it made it impossible. And by the 
way, if I can make an important point, even though they had 
this multiple use before that, the local community still 
managed it in such a way that it was pristine enough to still 
be designated as a monument. It is not like the people in 
Washington, DC, looked out there in Utah and said, ``Oh, what a 
mess they have made, we need to go save them.'' They had 
managed this land very well, as I said, to the point it was 
still pristine enough to be a national monument. And the 
presumption is many times, well, those fools out there in Utah, 
they are not smart enough to do this, we need someone in 
Washington, DC, to do it for them.
    Mr. McClintock. I wish my colleagues from other states 
where the Federal Government holds maybe 1 percent of the land 
area would consider what would happen to their communities if 
the Federal Government suddenly took over 93 percent of the 
land area, took all of that off the tax rolls, and then imposed 
draconian restrictions that prevented these lands from being 
put to any kind of productive activity.
    Mr. Stewart. Mr. Chairman, you make a point that I 
emphasize all the time. I feel like I am standing up for the 
little guy. I am standing up for families out in the rural 
communities who just want to keep their families together. 
Instead, their kids have to say, ``Dad, I would love to ranch 
with you, but we can't because our permits have been taken from 
us, and I am going to move to a city instead,'' when they would 
rather be where they are and stay with their own communities.
    Mr. McClintock. In this process of taking that 93 percent 
of the land and, essentially, forbidding productive use of it, 
I assume at least those local communities were fully consulted 
by the Federal Government. There were hearings held that there 
was maximum input from the local community?
    Mr. Stewart. I appreciate your sarcasm, but, of course, 
that was not the case, which is one of the primary objections 
we have to this. If people felt like they had a voice, if they 
felt like they had an opportunity to make their input and 
actually be heard, and if the decision went the other way, I 
think most people would be willing to accept that. They 
understand they are not the king. They don't get to decide 
everything on their own. All they are asking for is, give us a 
chance to tell you what this has done to our community. Give us 
a chance to tell you what this has done to our families.
    Mr. McClintock. Perhaps that is why our Constitution gives 
to Congress, and not to the President, authority over the 
public lands, so that decisions like this that affect the 
livelihoods of families across the West would be done in the 
open, with full hearings, full consultation with the local 
communities affected, and ultimately, voted upon by all of the 
representatives of the people after open deliberations--not by 
a single individual with a stroke of a pen acting in secrecy, 
and worse than secrecy, actually misleading the local 
representatives of the community of his ultimate intent.
    Mr. Stewart. Chairman, I won't repeat what you said, I will 
just say thank you for saying it, and I agree with you.
    Mr. McClintock. Thank you.
    I recognize the Ranking Member.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Chair, in light of the fact that we are going to be 
called for votes, and we have a panel who have traveled a 
distance to be here, I am going to yield my time to 
Representative Lowenthal.
    Mr. McClintock. Thank you.
    Mr. Lowenthal. Thank you, Ranking Member. And thank you, 
Congressman Stewart, for your service and your representation 
of your community and their needs.
    Mr. Stewart. Thank you.
    Mr. Lowenthal. I want to make sure I understand the bill as 
you are presenting it to us, so I am asking you, can you 
confirm that the bill does not repeal any of the approximately 
900,000 acres of wilderness study areas under BLM, within the 
original Grand Staircase-Escalante National Monument. Will they 
be maintained as wilderness study areas, those 900,000 acres?
    Mr. Stewart. This bill codifies the President's action of 
last week. Some of those study areas reside within the national 
park, and they will be managed as a national park at that 
point.
    Mr. Lowenthal. Well, I am not talking about just the 
national park, we are talking about the monuments and the 
original land.
    Mr. Stewart. Right. No, it does not repeal any wilderness 
study areas.
    Mr. Lowenthal. Section 13 is quite ambiguous about that, so 
I appreciate that answer.
    Mr. Stewart. We would be happy to work with you on language 
that would clarify that.
    Mr. Lowenthal. So, you are saying those 900,000 acres, 
which are now wilderness study acres, will remain wilderness 
study acres?
    Mr. Stewart. That is one of the misunderstandings. I don't 
mean to say you misunderstand; I am talking more generally. 
Some of the misunderstandings that people have regarding this 
is that the assumption is it repeals any protections, and that 
is just not true. These are still federally owned lands. They 
are still federally managed, exactly like they were before.
    Mr. Lowenthal. Thank you. I appreciate it.
    So, your answer is those 900,000 acres, if they are 
wilderness study acres now, will remain as wilderness study 
acres?
    Mr. Stewart. That is true.
    Mr. Lowenthal. Thank you.
    Also, there are going to be approximately 677,000 acres of 
Federal public lands, and your bill would potentially open up 
those 677,000 acres of Federal public lands that are no longer 
within the Grand Staircase-Escalante National Monument. You are 
going to open those up to, for example, potentially, oil, gas, 
tar sands, coal leasing, as well as hard rock mining. So, you 
are understanding that now we are going to open these up to 
those development activities?
    Mr. Stewart. The intention would be for these to be managed 
like any other Federal lands. And if they are available and if 
there are no coal or gas resources there at this point--and I 
don't think there is anyone who speculates that there are--they 
would be subject to all of the same protections that any other 
Federal land----
    Mr. Lowenthal. Thank you. I am just making clear, really, 
and you have just--we are now, potentially, opening up all what 
was protected.
    Mr. Stewart. I appreciate you bringing up that point, 
because that is actually one of the things we want to do. I am 
not hiding from that. I am embracing that. Of course, we are 
trying to do that. That is one of the things we are trying to 
do for the local community, is to make these resources 
available to them so that, as I said, they can have 
opportunities that have been taken from them.
    Mr. Lowenthal. Thank you. I yield back.
    Mr. McClintock. Do any other Members wish to avail 
themselves for 5 minutes of questions for Mr. Stewart?
    Seeing none, we thank Congressman Stewart for bringing the 
bill to us, and we would welcome him to remain and participate 
in the Subcommittee from the dais.
    Mr. McClintock. We will now ask our second panel of 
witnesses to come forward. While they are doing that, the Chair 
recognizes the Chairman of the Natural Resources Committee, Mr. 
Bishop, for 5 minutes.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you. I would like to do my opening 
statement now as the new panel is getting situated, so we can 
speed up the time.
    As a history teacher, I just want to go through the history 
of the Grand Staircase-Escalante National Monument. An Interior 
Department Solicitor's memo told the President that monuments 
proposed by the President do not require NEPA because NEPA 
compliance does not cover presidential action. So, in August of 
1995, that was a year before the Clinton re-elect, there was a 
series of memos that went through asking President Clinton to 
do something for his re-election campaign to, and I quote, ``To 
help overcome the negative views toward Clinton, a designation 
of a new monument would create a compelling reason to 
enthusiastically support the administration.''
    The idea of it taking place in Utah was, once again I quote 
from internal memos, ``Opposition would come from those who, in 
candor, are unlikely to support the administration under any 
circumstance.''
    In 1992, Mr. Clinton had finished third in Utah behind both 
Bush and Ross Perot, so it was obviously easy pickings.
    On March 19, 1996, that was the election year, once again, 
memos went through there, and there was a letter coming from 
CEQ to the White House that needed to be signed because it had 
to look as if the President initiated this, not CEQ, not the 
Interior Department, so you could avoid NEPA compliance. If, 
and I am quoting again, ``If the alleged letter only asked for 
information about Utah, it looked biased, but ask for a broader 
review and it would have been clear that there are more 
compelling areas for designation than Utah parks.''
    In fact, a week later, in another memo, they said these 
lands are not really endangered, which is one of the criterias 
for using the Antiquities Act.
    Then they also had, another week later, coming from OMB as 
well as CEQ, another report saying that Grand Canyon National 
recreation area, because McGinty and others may want to rope in 
Kaiparowits and Escalante Canyons, these regions, if the 
package ultimately doesn't seem adequate. I would mention that 
what they are talking about adding later on to the package that 
they initially require is what this bill would be designating 
as a national park.
    As late as July 29, 1996, the CEQ and OMB were worried 
because a letter had not been signed. They once again sent 
another memo to the White House saying a letter does not have 
to be sent, but must be proposed and signed ASAP.
    In August of that same year, another memo went to the White 
House, resigned to having to wait because the Chief of Staff at 
that time, Leon Panetta, wanted time to talk to western 
Democrats before they actually signed and introduced anything.
    On September 9, news reports came leaking out in The 
Washington Post and other areas that the monument was going to 
be designated. On September 9, the CEQ then told the Utah 
delegation that no decision had been made. Secretary Babbitt 
told Senators Hatch and Bennet and Congressman Hansen that no 
decision had been made.
    On September 14, they once again said, I can tell you 
categorically no decision has been made with respect to this. 
Three days later, in a phone call to Senator Bennet, the White 
House said, oh, no, we deny these news reports. Anybody who 
says that this is going to happen, does not know what he is 
talking about. No decision has been made.
    On September 9, that story is why Governor Leavitt finally 
called the White House to try to find out the truth behind that 
story.
    That is the situation of how Grand Staircase-Escalante was 
originally established as a politically motivated area that was 
not necessarily in need of protection. In fact, other areas 
were in greater need, and it was added simply to try to get 
enthusiasm to election in a state that was not going to vote 
for Clinton regardless.
    I yield back my time, and I welcome the guests who are 
here. I appreciate listening to your testimony.
    Mr. McClintock. Thank you.
    If there are no other questions, the Chair now recognizes 
the former governor of the state of Utah, the Honorable Mike 
Leavitt, who has come to us today from Salt Lake City, Utah.

STATEMENT OF THE HONORABLE MIKE LEAVITT, FORMER GOVERNOR, STATE 
                            OF UTAH

    Mr. Leavitt. Chairman Bishop, Subcommittee Chairman 
McClintock, and Ranking Member Hanabusa, I want to thank you 
for the invitation to appear. I have been asked to recount the 
history of the way in which the Grand Staircase came forward, 
at least from my perspective as governor at the time.
    Grand Staircase, as has been spoken of already, was done in 
stealth. It happened under wraps. It was done on the fly. There 
was no consultation done with any state, county, or local 
leaders of Utah, our Federal office holders, or our people. 
None. Worse, there was a deliberate effort made to conceal and 
to keep the monument planning process out of view. Secrecy was 
so vital a concern to this endeavor that the administration was 
denying the decision had been made, even as bleachers were 
being assembled on the North Rim of the Grand Canyon for an 
event.
    The obsessive secrecy was documented multiple times. Once 
in a letter from the Interior Department. Solicitor John Leshy 
wrote, and I am quoting: ``I can't emphasize confidentiality 
too much. If word leaks out, it probably won't happen, so take 
care.''
    The need for secrecy was reinforced in a memo from the 
Council on Environmental Quality director, Kathleen McGinty. 
She said to another White House colleague, and I am quoting, 
``Any public release of information will probably foreclose the 
President's option to proceed.''
    President Clinton announced the creation of the monument on 
September 18, 1996. The first reports came out 11 days earlier, 
not from a public announcement, not from an entry in the 
Federal Register, but a news leak that has been referenced in 
The Washington Post.
    I recounted in my written testimony of days of calls and 
inquiries by me, by members of the Federal delegation, and many 
others, to every level of the executive branch. I was told by 
the Secretary of the Interior directly that his department was 
not involved, and suggested I call the White House, which I 
did. I was told at the White House that they were not certain 
where that report in The Washington Post came from.
    I asked for a meeting with the President or the Chief of 
Staff. I was finally granted one on September 17, the day 
before the announcement. At the same time as I suggested the 
Government of the United States was denying the plan, they had 
White House events people on the North Rim of the Grand Canyon 
preparing for the event.
    At 1:58 a.m. in the morning on the day it was announced, I 
finally received a call from the President. The President was 
gracious, but he said to me, I am just now beginning to review 
this matter. I was back in Salt Lake City by that time, by the 
time the announcement was actually made on the North Rim of the 
Grand Canyon in Arizona, not in Utah.
    This was a piece of land equal in size to the state of 
Rhode Island, the state of Delaware, and the District of 
Columbia combined. This is not the way public lands decisions 
should or were ever intended to be made.
    In 1976, the Nation made an important public policy 
decision we all know as FLPMA, the Federal Land Policy and 
Management Act. It requires great deliberation and careful 
process in determining how public lands should be used. Our 
system of government was constructed to prevent one person from 
having that much power.
    I would like to assert three foundational issues. One, 
there was land within the boundaries of the Grand Staircase 
that needed protection, but the President's order went way 
beyond that which was necessary or prudent.
    Second, the secrecy and the circumstances surrounding the 
monument's creation amounted to abuse of power, process, and 
protocol so egregious that it is offensive to the concept of 
democracy itself.
    And finally, while this hearing does not consider the 
ongoing nature of the Antiquities Act, Congress needs to refine 
it to prevent ongoing misuse. Thank you.

    [The prepared statement of Mr. Leavitt follows:]
 Prepared Statement of Michael O. Leavitt, Governor of Utah 1993-2003, 
    Administrator of the Environmental Protection Agency 2003-2005, 
            Secretary of Health and Human Services 2005-2009
    Chairman Bishop, Subcommittee Chairman McClintock, Ranking Member 
Hanabusa, and Committee members, thank you for the invitation to speak 
with you, as we again find monuments and public land protections in my 
home state of Utah in the national spotlight under debate. This is 
where we should have been all along.
    There are lands in our state that require protection, and the 
record will show me to be consistently supportive of responsible 
efforts to do so. My statement today is aimed at establishing two 
foundational points. First, both the Grand Staircase-Escalante and 
Bears Ears National Monuments were abuses of the 1906 Antiquities Act, 
setting aside far more land than was necessary to meet the law's 
purpose. Second, the way Grand Staircase came forward was an abuse of 
power, process, and protocol so egregious that it is offensive to the 
concept of democracy itself.
    Debate is a wonderful thing. Good-faith collaborations yield 
extraordinary results. An open give-and-take involving governments and 
citizens at all levels makes democracies work. Trust is essential. Had 
any of these been applied to the original process of designating Grand 
Staircase in 1996, I doubt we would be here.
    The Grand Staircase monument is 21 years old. Bill Clinton was the 
president who created it. I was governor of Utah at the time. The 
monument was done in stealth, under wraps and on the fly. There was no 
consultation with any state, county, or local leaders in Utah, our 
Federal office-holders or our people. There was a deliberate effort to 
conceal and keep monument planning out of public view. Secrecy was so 
vital a concern to the endeavor that the administration was denying a 
decision had been made, even as bleachers were going up for the 
presidential announcement at the Grand Canyon.
    There were calls made by administration figures to Democratic 
politicians and allies in surrounding states. Activist groups had input 
and major newspapers received advance word. Aides to Mr. Clinton 
fretted over whether to give a heads up to Democratic candidates for 
office in other states. Utah didn't rate. We couldn't even get a map. 
The partisanship and unilateral power play were unprecedented and 
stunning to behold.
    Confronted with those circumstances, the move was contentious from 
Day One. With the stroke of a pen, local communities had their 
interests upended. Mining leases were impacted, as was statewide 
funding of public education. Commercial development was precluded, a 7-
year environmental impact study on the coal fields of the Kaiparowits 
Plateau jettisoned overnight.
    Then came the repercussions. Congressional hearings were held, 
lawsuits filed, the Antiquities Act challenged, and the smoking embers 
of national vs. western land-use antagonisms once again flamed.
    The law was followed, a court ruled 8 years later. But the breach 
of trust, Federal over-reach and disregard for the basic foundations of 
democratic government lingered in Utah much longer. The monument born 
of political expedience never had the buy-in and the constructive voice 
of surrounding communities those lands warranted and deserved.
    Twenty-one years later, a new president and a different Congress 
are taking another look. Grand Staircase faces a down-sizing and 
reconfiguration, along with Bears Ears. It did not have to be this way.
    There are parallels in the two cases. They rely on an expansive 
reading of the Antiquities Act in the creation of massive landscape 
monuments rather than the smallest-area-compatible standard required by 
the law. Where Grand Staircase was enshrined to curry favor and 
galvanize preservationist voters, Bears Ears came at the behest of 
environmental groups, backed by foundation money and fronted by 
representatives of Indian tribes.
    Both monument designations were a race against the clock to do 
something before time ran out, either to win votes or secure a 
historical footnote. And both had the effect, whether calculated or 
not, of forestalling other more time-consuming but comprehensive and 
workable initiatives to protect the same lands--more assiduously in 
some cases--while balancing conservation with the economic stability of 
local communities. One of those initiatives was a Canyons of the 
Escalante National Eco-region my administration proposed 3 years before 
Grand Staircase, the other was the Utah Public Lands Act Initiative 
launched and led here by Representatives Rob Bishop and Jason Chaffetz.
    There is a reason that Washington declarations like Grand Staircase 
and Bears Ears are described in Utah as ``midnight monuments.'' They 
are sprung on the state by a Federal Government removed from the 
aftermath and disinterested in its socio-economic realities. This time, 
we can do better. We can work it out for the American people and for 
Utah, in open discussion with honest brokers, congressional authority 
and the state of Utah's imprimatur.
    That starts with some undeniable truths and a look back on the 
Grand Staircase process with the perspective of two decades. First, 
Utah is a state where 65 percent of the lands are federally owned and 
administered. San Juan County alone, where Bears Ears is located, is 
home to a National Park, a National Forest, a National Recreation Area, 
three National Monuments and the highest poverty rate in Utah.
    In Kane and Garfield counties, which share the Grand Staircase 
footprint, it is a Godzilla-sized imprint. Half of Kane County is taken 
up by the monument. In Garfield, 98 percent of the land is federally 
owned.
    The preservation of public lands in Utah is always a familiar 
issue. I grew up in southern Utah, where all of our national parks and 
both of these monuments are located. No one in this country can love 
those lands more than those of us who live there. These places are vast 
and beautiful. They symbolize America and define Utah. They are home. 
But we also have to honor the processes and laws that guarantee 
ultimate stewardship and effective management.
    In Utah, we seek out new and better ways to work with the Federal 
Government in the planning and administration of these lands. Governors 
and local officials build relationships, forge partnerships and lay the 
groundwork for interagency cooperation. This is one reason the Grand 
Staircase designation caused shock and outrage. It was inconceivable 
that someone entrusted to the highest office of the United States would 
be willing to undertake a process that was purely partisan on a matter 
of such importance.
    I'll remind you of how it transpired. President Clinton announced 
creation of the monument on September 18, 1996. The first reports of it 
that I or any other elected official in the state received came just 11 
days earlier from a story in The Washington Post.
    This kicked off days of phone calls, conversations, delays, and 
denials by the White House and Interior Department. Secretary Bruce 
Babbitt said his department was not involved. The White House's 
director of intergovernmental affairs told me they weren't certain 
where the report came from. I asked for a meeting with President 
Clinton or Chief of Staff Leon Panetta and was given one a week later 
on September 17, one day before the still undisclosed monument 
announcement.
    Media reports, meanwhile were indicating that an important 
environmental announcement was planned at the Grand Canyon the 
following week. When we inquired directly of the administration about 
the time, place, and subject, they would not even confirm an event 
would occur. Local governments in Utah were becoming more and more 
concerned. On two other occasions that week I had conversations with 
Mr. Babbitt or his office. They continued to indicate that they had no 
information, insisting that the matter was being handled by the White 
House. When we called the White House, we were referred to Interior.
    Phone calls and meetings with local officials continued through the 
weekend, and we were still being told that ``no decision had been 
made.'' On Monday September 16, 1996, the Governor's office could still 
not get confirmation of where or what the official announcement would 
be, despite the fact that buses were being organized to take Utahns to 
Arizona. I traveled to Washington for the Panetta meeting. That meeting 
lasted just under an hour. Mr. Panetta was attentive and gracious. He 
told me that was the first time he had been able to focus on the issue 
and that he had set aside the afternoon to prepare a recommendation to 
the President.
    I reviewed for him the Canyons of the Escalante Eco-region 
proposal, a new model of land designation that incorporated the 
requirements of all the others and tailored the correct land use to 
specific land parcels. It matched up with the contours of the new Grand 
Staircase and had been previewed at least a year earlier to Secretary 
Babbitt. Ironically, the most pristine areas would have been afforded 
much more aggressive protection in that proposal than what was 
ultimately proposed.
    The bulk of the meeting, however, centered on the presence of 
school trust lands within the monument. These are lands scattered 
across Utah that derive revenues from energy, mineral resource 
development, grazing and timber production. The monies flow to a 
permanent endowment created at statehood to support public education. 
Prior to that discussion--and this is the day before the announcement--
Mr. Panetta had been unaware of those lands' existence and the 
importance they held for the school children of our state.
    At the end of the presentation, Mr. Panetta told me I had made a 
compelling case. To which I replied, ``If this is compelling to you, 
then before the President sets aside a piece of land equal to Rhode 
Island, Delaware, and Washington, DC, combined, he needs to hear the 
same information directly from the governor of the state.'' I was told 
Mr. Clinton was campaigning in Illinois and Michigan, but he would call 
me later in the evening.
    At 1:58 a.m. on September 18, I got the call, and we talked for 30 
minutes. The President said he was just then beginning to review the 
matter. I restated the points raised with Mr. Panetta and offered to 
put them into a memo the President could read in the morning. This was 
before laptops and smart phones, so I sat at the hotel desk and wrote 
three pages by hand, then faxed it to the President at his hotel at 
4:30 a.m.
    The memo said that if a monument was going to be created, the 
President should create a commission that included state and local 
government officials to recommend boundaries and solve a number of 
management questions. It stated that it should work toward a policy 
that protects the land, preserves the assets and maintains the 
integrity of the public process.
    Several hours later, I spoke again with Mr. Panetta, who said my 
ideas had merit and that he would be reviewing this again with the 
President. Later in the morning, he informed me that the monument would 
be announced and said some of my suggestions on water, wildlife access, 
and a planning process with local and state participation were being 
incorporated.
    I was back in Salt Lake City at the Capitol when the announcement 
was made at the north rim of the Grand Canyon--in Arizona. As governor, 
I had never seen a map, read the proclamation or been invited. Simple 
courtesies were never the issue. The issue was process and public 
trust. It's hard to believe this was how such a decision could be made 
by the executive branch of the U.S. Government.
    Grand Staircase was a major land decision, still one of the biggest 
in the United States. It was not made the way public lands decisions 
should or were ever intended to be made. In 1976, the Nation made an 
important public policy decision when Congress passed the landmark 
Federal Land Policy and Management Act (FLPMA). It required great 
deliberation and careful process in determining how public lands would 
be used. That Act and other related legislation contains protections 
for state and local communities. It was the policy of my administration 
then to assure that our state was not denied those protections, to 
defend Utah's interest against abuses of power, and to seek additional 
protections when existing measures proved inadequate.
    Use of the Antiquities Act to create Grand Staircase was a clear 
example of inadequate protection. Our system of government was 
constructed to prevent one person from having that much power without 
checks or balances from another source.
    The Antiquities Act was originally intended to provide emergency 
power to protect Indian artifacts and objects of historic and 
scientific importance, not to create sweeping monuments of a million-
plus acres, with minimal regard for the relationship between the land 
and the local economy. In southern Utah, both Grand Staircase and Bears 
Ears individually are larger in size than our five national parks 
combined.
    Using the Antiquities Act also has another downside. What one 
president can do with a pen, a phone, and a podium at the north rim, 
another can undo or unravel. Congressional action, had it not been pre-
empted by executive over-reach, would have required more time and 
debate. It also would have provided a solid, enduring foundation.
    In the ensuing months, we pressed forward with the administration 
on our objectives for the monument. We reached agreement on the 
management plan, and it was better because of the state's involvement.
    Two years later, we signed an agreement for a historic land swap: 
the state exchanged 370,000 acres of trust lands within Federal 
holdings for 140,000 acres of Federal land and leases for coal and 
natural gas and $50 million in cash.
    In future years, I served in the Cabinet of the George W. Bush 
administration, first as EPA Administrator and then Health and Human 
Services Secretary. For nearly 6 years there, I saw how important 
decisions should be made in the White House. Nothing ever rivaled the 
abuse of power and questionable ethics of the Grand Staircase episode.
    More was uncovered in time, sometimes under subpoena, about the 
undemocratic process that occurred--and also about monument impacts and 
competing values.
    The obsessive secrecy was documented multiple times: once in a 
letter from Interior Department Solicitor John Leshy to the Colorado 
professor who drafted the proclamation. Leshy stated, ``I can't 
emphasize confidentiality too much. If word leaks out, it probably 
won't happen, so take care.'' Another time it was reinforced in a memo 
from the Council on Environmental Quality Director, Kathleen McGinty, 
to another official at the White House. That one stated warned that 
``any public release of the information will probably foreclose the 
President's option to proceed.''
    Mr. Panetta and President Clinton both indicated at the time that 
they did not like how it all unfolded, but felt that the momentum of 
the event had swept things irrevocably forward.
    I believe with considerable certainty that the monument originated 
at the Department of the Interior, working closely with national 
environmental groups. The proposal was given to CEQ to manage. I'm 
confident that Mr. Panetta and the President liked the idea of creating 
a national monument, but I suspect the presidential campaign and 
environmental organizations clearly took over the process.
    Somebody got worried that the White House might start asking 
questions and delay the event, so they leaked the monument proposal to 
The Washington Post, making it impossible for them to back out. The 
fact that it was sprung as a surprise, even after being denied all week 
was morally wrong. The fact that the White House discussed it with the 
governors of other states, but not Utah was a clear indication of the 
political nature.
    Some additional mindsets and methodologies were revealed in more 
recent recollections of staff members who gave oral histories for 
college libraries. Those included statements that locking up coal 
reserves in the monument was the primary motivation, and that the 
administration could have used litigation to squeeze out lease-holding 
coal companies without paying them, but made deals out of fairness.
    There was speculation about the future of coal. Solicitor Leshy 
stated in 2014 that half the coal-fired plants in the country were 
shutting down, and ``coal is on its way out.'' He described southern 
Utah's interest in coal development as shortsighted, and surmised that 
the monument payout gave Andalex--the company with the EIS proceeding 
for its lease on the Kaiparowits--an excuse to ``basically beat a 
retreat.''
    With a straight face I imagine, he also lamented that the 
atmosphere in Congress surrounding the Antiquities Act had become so 
partisan and assessed that Grand Staircase was the formal end to the 
region's ``dream'' of a heavy industry economy and the turning point to 
a future based on recreation and tourism. Good to know.
    There was a revelation that in drawing up the monument boundaries, 
a drafter called a friend who had worked at the Grand Canyon Trust to 
help set the southern border. And in a candid reflection, U.S. 
Geological Survey biologist Jayne Belnap, who helped craft the 
monument, suggested that most people likely believe it is God's will 
that land be taken care of, but then dialogue falls apart when it comes 
to defining what caring for the land truly means.
    The Sand Flats Recreation Area near Moab, she said, was ``killed 
off'' by mountain bikers, not ranching and grazing, and there was no 
prevailing on bicyclists to acknowledge otherwise. As she put it, ``I 
watched it several times, people riding everywhere making a mess. I 
tried to talk to some of them about it and they were the most arrogant 
. . . `I am a well-educated environmentalist who sends my money to 
Sierra Club. You have nothing to tell me.' I would way rather deal with 
a rancher, frankly.'' It's all about the construct and point of view.
    One other e-mail that surfaced a year after the monument 
designation was starkly prescient. Written by an associate director of 
the CEQ, it noted that presidents before Mr. Clinton ``have not used 
their monument designation authority in this way in the past--only for 
large dramatic parcels that are threatened. The bad guys--her words--
will have the chance to suggest that this administration could use this 
authority all the time all over the country and start to argue that the 
discretion is too broad.''
    Twenty years later, by the end of 8 years in office, President 
Obama had used the Antiquities Act 34 times to lock up more than 553 
million acres of land and water as national monuments--66 percent of 
the total ever designated as a national monument under the Act. It was 
more than any other administration in history.
    To my knowledge, neither president has ever set foot in Grand 
Staircase or Bears Ears. Yet the proponents of their unilateral actions 
always maintain that the people who live in these areas will come 
around and learn to love the monuments. What they never seem to 
comprehend is that we always did.
    The opportunity now lies with Congress to protect and set apart the 
places in Utah that deserve it, to consider what the lands mean to 
those who live on them as well as those who visit, to apply the law as 
designed and assert its proper authority in establishing the best fit 
for Utah and all of America.

                                 ______
                                 

    Mr. McClintock. Thank you for your testimony.
    The Chair is now pleased to recognize the Honorable Leland 
Pollock, Chairman of the Board of Commissioners from Garfield 
County, Utah. He comes to us today from Panguitch, Utah. 
Welcome to the Committee.

     STATEMENT OF THE HONORABLE LELAND POLLOCK, COMMISSION 
   CHAIRPERSON, BOARD OF COMMISSIONERS, GARFIELD COUNTY, UTAH

    Mr. Pollock. Good morning. My name is Leland Pollock. I am 
a Garfield County Commissioner. I am also a lifetime resident 
of Garfield County.
    One of the best places on this planet is Garfield County. 
And very frankly, I am tired of all of the propaganda, 21 years 
of stories about the Grand Staircase that are not true, so I am 
glad that you all are giving me an opportunity to come back 
here to tell the truth. And anybody today that doesn't believe 
what I have to say, come on out, I will take you around. It 
will take us, I mean, they have said 1.7 million acres, it is 
about 2 million acres, after all the state trust lands and 
everything were consumed by this process within the boundaries 
of the Grand Staircase, you are talking 2 million acres of 
land.
    To put this into perspective, Garfield County is the size 
of Connecticut. Ninety-three percent of my county is Federal 
lands, 3\1/2\ percent state, 3\1/2\ percent private. So, from a 
county perspective, and if you have ever tried to do taxes and 
tried to collect revenue, just put that into perspective how 
hard it would be to manage a county. But that is not the point. 
The point of the matter is there have been negative impacts.
    Number one, school enrollment in the little town of 
Escalante, prior to the Grand Staircase, was 150 children, 7th 
through 12th grade. That was the school enrollment, 150. 
Congressman Stewart brought up the state of emergency. We 
didn't make that up. The County commissioners didn't do that. 
We did that at the request of the school district, because the 
school enrollment numbers had dropped to 51 children, 7th 
through 12th grade. Everybody here that is listening knows how 
hard that would be to educate 51 children, 7th through 12th 
grade.
    So, if all of this economic benefit that has been talked 
about is true, why did the school enrollment drop? Well, Number 
one, it is pretty obvious, all the traditional uses of all that 
land were taken away from us.
    Now, I would like to make another point. Probably 20 
percent of that monument is visited. I don't doubt that. I 
applaud the fact you are trying to do something with that, say, 
20 percent. But 80 percent of the land mass--if you don't 
believe me come on out, we will go out--a lot of it, the roads 
have been closed, but it is just BLM rangeland like you will 
find anywhere in the western United States. And I am sorry, 
people are not going to travel from all over the world to look 
at sagebrush and regular BLM rangeland. There is no tourism 
value.
    Why is that the case? Because it was tied up for political 
reasons. It was tied up to stop coal mining. It was tied up to 
limit and prohibit the traditional grazing practices. As far as 
grazing goes, there has been a story that no AUMs have been 
cut, animal unit months. Animals on the ground, basically, is 
what it is. That is not true. Those AUMs have been suspended. 
That means you cannot run them on the land. Why have they been 
suspended? Because we have not been able to do actual range 
recovery projects. We have not been able to maintain the land.
    On western land in 1934, the Taylor Grazing Act--that is 
what created the BLM, the way I understand it--was created to 
do recovery projects. Now, on all this BLM land that is still 
BLM monument, there have been no recovery projects. Water 
sources have dried up. That does not just hurt cattle, that 
hurts mule deer, big horn sheep. It hurts the land, soil 
erosion problems, all kinds of evasive/invasive weed problems, 
pinyon and juniper encroachment.
    Western land has to be maintained. I am sorry. I know there 
are radical environmentalists, so-called environmentalists that 
say, oh, no, just leave it alone. You cannot do that with BLM 
land. That is why the BLM was created.
    In closing, I applaud this effort, and I just ask you, 
please look at all the facts. Don't get wound up about 
political agendas, just look at the facts.
    Thank you for your time.

    [The prepared statement of Mr. Pollock follows:]
Prepared Statement of Leland F. Pollock, Commissioner, Garfield County, 
                                  Utah
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, my name is Leland Pollock, and I am the chairman of the 
Garfield County, Utah Commission. I also serve as chairman of the 
National Association of Counties Public Lands Committee and have 
formerly served as the Chairman of the Utah Association of Counties 
Public Land Steering Committee. I am also the son of a Park Service 
employee and literally grew up within the boundaries of Bryce Canyon 
National Park. I have lived on and around public lands my entire life, 
and understand their importance to the local communities and the Nation 
as a whole. Based on a lifetime of experience with public lands and 
National Parks, I believe I am informed and can accurately testify 
before you today.
    Garfield County is a scenic rural area roughly the size of 
Connecticut. Ninety-three percent of the land base is under Federal 
ownership, and I believe we are the only U.S. county that contains 
portions of three National Parks (Bryce Canyon, Capitol Reef, and 
Canyonlands). We are also home to significant portions of the Glen 
Canyon National Recreation Area, the Dixie National Forest, the Grand 
Staircase-Escalante National Monument (GSENM or Monument), two BLM 
field offices, and a small segment of the Fish Lake National Forest. 
Private ownership is extremely limited, and is only 3 percent to 5 
percent of the total land base. On that limited tax base Garfield 
County is responsible for schools, road maintenance, garbage 
collection, emergency medical services, law enforcement, search and 
rescue, and a host of other public services. Garfield County, like Kane 
County, is responsible for the liabilities on millions of acres of 
Federal land within their boundaries, without a voice in how those 
lands are managed.
    I am here today to testify on local needs of Garfield County for 
the Grand Staircase-Escalante National Monument and the Escalante 
Canyons National Park proposed by Representative Chris Stewart. Public 
lands, monuments, and parks are a wonderful thing. The basic premise of 
preserving outstanding resources for the enjoyment of current and 
future generations is honorable. The BLM and Park Service have 
developed wonderful skills at managing people while preserving 
resources.
    Unfortunately, over the past few decades, enjoyment of public land 
and park resources by current generations has suffered at the hands of 
those who believe Federal lands should be managed to lock people out 
and prohibit reasonable visitation and access. It has suffered by a 
misguided notion that the best management comes from agency heads that 
are significantly influenced by special interests and political 
lobbying. For the past 21 years Garfield County has been forgotten by 
Federal managers thousands of miles away who do not understand the 
impact the Monument has had on the lives of real people in southern 
Utah. As a County Commissioner I must speak up for those forgotten 
families, forgotten stewards of the land, forgotten hunters, ranchers, 
and tourists, those who are clinging to a life they once knew and that 
could be restored if those people had a voice that was heard in 
Washington, DC.
    The proposed Escalante Canyons National Park and the various units 
of the GSENM, to be of any significant benefit to anyone, must be 
managed (a) largely under the direction and guidance of local elected 
officials who best know and understand the resources, and (b) to 
accommodate a variety of the American public by becoming ``people 
places.'' They must be places that allow the current generation to 
enjoy and appreciate the great wonders of the area, while preserving 
the resources for future generations.
    Garfield County has the skills, technical knowledge, and ability to 
accomplish these two tasks simultaneously: (1) facilitate and allow the 
enjoyment of Garfield County's outstanding resources by the current 
generation; and (2) preserve our outstanding resources for future 
generations. These are not mutually exclusive management goals. The 
local people had accomplished those multiple use/sustained yield goals 
for over 100 years prior to the designation in 1996. Unfortunately, 
many individuals and groups create conflict and promote exclusive, 
single-use designations for the purpose of restricting public access to 
public lands.
                            monument effects
    President Clinton's monument designation 21 years ago started a 
suffocation of Garfield County. While no single industry felt an 
instant fatal blow, the effect of the restrictions cumulatively was 
death by a thousand cuts.
Socio-economic Deficiencies
    Prior to 1996 Garfield County was a growing economy and population. 
For approximately 120 years multiple-use land-based industries that 
sustainably and reasonably used public lands surrounding Escalante 
supported the families of that community. With severe monument 
restrictions on that land, businesses started closing and young 
families were forced to move to metropolitan areas to find employment. 
That exodus caused a self-perpetuating effect in all industries that 
now had a dwindling customer base. This economic shrinking has 
continued for 21 years.
    The tourism jobs that were promised were never realized, as the 
monument has never been managed for tourism and access to visit the 
incredible sights, but rather for limited recreation and more like a 
conservation area. The few jobs that outfitting and recreation guiding 
did bring are seasonal and low wage; more suited for college students 
in the summer than for a living wage to support a family year-round. 
Nationally, 10.5 percent of the economy is made up from service 
industries. In Garfield County tourism and service industries (and it 
is usually the low end jobs from those industries) comprise 
approximately 44 percent of the local economy. Attached is a chart 
showing the seasonality of Garfield County employment compared to two 
nearby communities and the state of Utah. All other effects stem from a 
struggling local economy hobbled by over-burdensome land restrictions.
    Please also note, some will attempt to mislead you into believing 
the Grand Staircase-Escalante National Monument has been a great 
economic boon to Garfield County. They often cite an economic study 
produced by Headwaters Economics. That study draws its data from 
communities that are hundreds of times larger than Garfield County, 
such as the Phoenix metropolitan area, and the area designated for 
monuments is 5 percent to 10 percent of that designated for Garfield 
County. The study also includes the largest community in southern Utah 
in the analysis, even though it is two counties (over 100 miles) away 
and on the other side of Zion National Park and Bryce Canyon National 
Park.
Loss of School Kids and Families
    Since creation of GSENM in 1996 enrollment in the 7th through 12th 
grades of Escalante High School has dropped from over 150 students to 
less than 50 today. That is a loss of more than 66 percent. We would 
not permit the loss of two-thirds of the juveniles in any species on 
this planet. But yet, we manage our public lands that completely 
surround the communities in Garfield County in a manner that results in 
that very same loss. Only in this instance, we're talking about people, 
families, and human lives. Even when classes are available, the quality 
of education with only a few students per class, without sufficient 
student/social interaction, suffers compared to an energetic class of 
15-20 students discussing and sharing diverse viewpoints. The situation 
became so unbearable that in 2016 the County was forced to issue an 
emergency declaration.
Increased Burdens on Local Governments
    Garfield County has tremendous scenery. Creation of the Grand 
Staircase-Escalante National Monument brought attention to that scenery 
and required increased local government services in the form of road 
maintenance, law enforcement, search and rescue, and other services. 
For example: The Hole in the Rock Road, a route originally traveled by 
pioneers in 1879, has increased approximately 2,000 percent since 1996. 
However, the Monument Management Plan, written and controlled by agency 
heads without accepting local input, prohibits improvements to the 
road. That means Garfield County cannot install culverts or drainage 
improvements to accommodate floods which leads to poor road quality and 
increased automobile incidents not equipped to handle the rough roads. 
The BLM and Park Service then repeatedly call our road crews out in the 
middle of the night--risking our lives--to rescue trapped and stranded 
visitors. Here again, local elected officials have the information and 
experience to correctly manage problems, and agency heads in 
Washington, DC are unfamiliar with the territory.
    Similarly, utility corridors, well established prior to the 
Monument designation, have been severely restricted by poor management 
without local input. Garfield and Kane Counties have been limited in 
expanding fiber optic connectivity for internet and cell towers because 
of management restrictions within already prescribed utility corridors. 
Beside the economic potential that connectivity would provide, the lack 
of adequate cell reception has created a safety issue that could often 
be prevented by stranded visitors being able to call for help or use 
mobile-based navigation.
    That same utility corridor restriction caused an emergency in the 
town of Henrieville which was not permitted to access its water lines 
for repair in the Monument and suffered a catastrophic collapse of its 
entire water system. Tens of thousands of gallons of water for drinking 
only was hauled to the city at great expense over a week until the 
right to access the lines was allowed by Monument management.
Lack of Adequate Signing
    The same Monument Management Plan prohibits guidance signing in 
approximately 94 percent of GSENM. People on even the most popular 
hikes are frequently lost; and in July of this year we had another 
death on the trail to the second most popular hike in the Monument 
because the hiker could not find the trail back to his car. Most of the 
consequences of poor management are preventable with proper simple 
signage. However, the expense for poor management is passed on to 
Garfield County when called for search and rescue, medical, and law 
enforcement services.
Loss of Artifacts and Objects of Antiquity
    One of the great ironies of the Grand Staircase-Escalante National 
Monument is collection of artifacts and souvenirs. The Monument 
Management Plan prohibits any rock or artifact removal, including for 
the Monument itself for use in display purposes in the visitor center 
because the visitor center is located in Canonville Town, outside 
monument boundaries. However the Management Plan allows universities 
and museums to come to Garfield County, extract and raid our world-
class archaeological and paleontological artifacts and take them out of 
the County with no remuneration and without any local hope of their 
return. If the landscapes are unique to the area, and worthy of 
visitors coming to experience them here, the unique paleontological and 
archeological resources are equally impressive and researchers should 
come to Garfield County to experience them. Federal agencies have long 
promised, in accordance with scientific protections of the Antiquities 
Act, to make the Grand Staircase-Escalante National Monument a science 
monument with a science research center and on-site university classes, 
but for 21 years those promises have never been fulfilled.
Closing the Monument to Visitors
    A 1.9 million acre Monument should be large enough to accommodate 
many visitors. However, the Management Plan, written without genuine 
local input, severely restricts visitation in almost all parts of 
GSENM. In two-thirds of the Monument many small groups of friends or 
family cannot legally visit together because they will be over the 12 
person limit. In 94 percent of the monument family reunions or scout 
camp-outs are illegal because of the 25 person limit. In the front 
country designation it is a violation to collect dead and down 
firewood, so families cannot roast marshmallows or hot dogs unless they 
bring their own firewood. The monument management plan is written to 
keep people out rather than accommodate reasonable visitation and allow 
the public to enjoy the area in a reasonable manner. These explicit 
rules also restrict historic religious and cultural heritage events, 
which were supposed to be grandfathered into the Monument Plan, but the 
Harvey rule precluded that use.
    Much of that closing to visitation is implicit. A purposeful lack 
of most infrastructure discourages the vast majority of Americans from 
enjoyment of these public lands. The second most popular destination, 
the Peekaboo and Spooky trails, lack any restroom facilities, and the 
trailhead and parking area is covered in trash and human waste by more 
than 20,000 annual visitors leaving a health hazard and stench. Another 
popular religious and cultural attraction, Dance Hall Rock, finally 
received a restroom, the only restroom in over 40 miles of popular 
attractions, only after 19 years of persistent requests.
Wildlife Habitat Recovery and Livestock Grazing
    The Monument has historically been a coveted hunting ground for 
mule deer and other species. Wildlife benefited greatly from livestock 
producers who maintained vegetative quality and water sources for 
livestock and wildlife alike. While livestock grazing was guaranteed by 
the 1996 designation, Monument management decisions to not allow 
habitat recovery projects or for equipment use for water source 
maintenance that naturally erode over time, has severely limited 
livestock producers and their livelihood. Monument management 
repeatedly cite that few livestock numbers have been permanently 
reduced, but in reality over a third of the guaranteed AUMs have been 
``permanently suspended'' due to dwindling grazing conditions on the 
ground. Monument management does not need to cut AUMs from livestock 
grazing, the ranchers will be forced to do it themselves because there 
will not be anything on the ground for their livestock, or the 
wildlife, to eat.
    The effect of that restriction has also impacted wildlife, 
including critical mule deer migratory corridors. This wildlife decline 
has impacted the local population as well as sportsmen across the 
intermountain region who have historically relied on southern Utah as a 
premier hunting destination. Without the habitat recovery projects 
carried out on public lands across the West, all animals suffer.
                            future solutions
    These are just few of the real-life problems that have occurred 
because local elected officials were not given any voice in managing 
lands within their jurisdiction. Admittedly, Federal officials provided 
lip-service, held open houses, and requested comments in the Federal 
Register. However none of the local input was adopted into the plan. 
While a historic view of the effect of poor management could continue, 
I prefer to focus on solutions for the future to better accomplish the 
dual goals of enjoying and using the land now, and preserving the 
resources for future generations. Congressman Stewart's legislation for 
Garfield County, Canyons of the Escalante National Park, and the units 
of the Grand Staircase-Escalante National Monument will provide a 
balance between Federal management and local input and establishes a 
platform to best accomplish those dual goals.
    Primarily the proposed legislation will better place public lands 
in public hands again. Critical to that aim is the distinction between 
tourism and recreation. Tourism is conducted by larger groups of people 
and is generally attraction based. Tourists come prepared for a 
specific set of activities and are looking for a specific set of 
outcomes, locations, schedules, or accommodations. Many details and 
other aspects of their experience may be handled by others. The 
presence of other individuals participating in the same activity is 
accepted and sometimes welcomed. Frequently tour buses, shuttles, paved 
roads and trails, trams, and other facilities for transporting people 
to various places are used.
    Quite differently, recreation is most generally self-directed and 
involves much smaller numbers of people, possibly only one or two 
individuals. The presence of others participating in the same activity, 
at the same time in the same place is unwanted and unaccepted. Often, 
facilities are not required or are even shunned. In parks and monuments 
where tourism and recreation are both accommodated (e.g. Zion and Bryce 
Canyon National Parks) recreation makes up a very small percentage of 
the visitors, generally less than 5 percent to 10 percent.
    The more heavily visited areas of Zion and Park Bryce Canyon 
National Parks are examples of tourism and represent people parks/
monuments/public lands. The remote areas of Capitol Reef National Park 
and the Maze District of Canyonlands National Park are example of land 
base parks. It should be noted that even people parks like Bryce and 
Zion use a relatively small percentage of their lands to accommodate 
the vast majority of their visitors, and recreationists are able to 
enjoy the majority of the land in solitude that most tourists will 
never try to visit. A key distinction is also that people parks/
monuments accommodate both tourism and recreation. Land base parks/
monuments only accommodate recreation. Hence, land based parks have a 
much smaller visitation and a much higher per visitor cost than people 
parks.
    In order for the Grand Staircase-Escalante area to fully benefit 
the American public it needs to maximize the value to both tourists and 
recreationists, while at the same time preserving the attractions, 
heritage, scenery, activities, and resources that justified the 
designation in the first place. Time and space are insufficient to 
discuss all aspects of managing the public lands in the Grand 
Staircase-Escalante area, but summarized below are some of the most 
important aspects that need to become foundational management 
principles.
Access
    In order for the Grand Staircase-Escalante lands to be a benefit to 
the American public, access needs to be provided for tourism and for 
recreation. For the past 20 years access in the GSENM has been woefully 
inadequate. It is the main source of conflict between the Federal 
Government and the state of Utah and its counties. Even remote access 
roads throughout the Monument have been repeatedly restricted and 
closed throughout the 21-year history. On the current trajectory there 
will not be any motorized access inside the monument in another 21 
years. Generally, the Grand Staircase-Escalante area is bounded on the 
south and west by U.S. 89 and on the north by State Highway 12; an All-
American highway. Other than those two state highways, paved roads in 
the monument are limited to 14 miles of the Burr Trail Road, a short 
section of Kodachrome Road from the town of Cannonville to Kodachrome 
Basin State Park, and a few miles of Johnson Canyon Road through 
private land in Kane County. Hole in the Rock road, the most heavily 
used road in the interior of the monument, has management plan 
prohibitions against reasonable improvements. In order to make the 
entire area work for the public, access must be improved, roads must be 
reliable, and infrastructure supporting recreation and tourism must be 
developed. Many of the search and rescue efforts could be prevented 
with better road access and signage on those roads so visitors know 
what their vehicle is suited to and where they should avoid.
    Associated with such improvements are adequate rights-of-way along 
the existing roads and trails. The rights-of-way need to include 
sufficient width to accommodate turnouts, overlooks, bus turnarounds, 
rest stops, restrooms, bike lanes, interpretive areas, and other 
features normally found in national parks and monuments. It is 
estimated that a width of 330 feet on each side of state highways or 
county road centerline would be sufficient for all major collectors and 
arterials. For local roads and resource roads a width of 165 feet on 
each side of centerline would be generally adequate with provisions in 
specific instances to increase to the 330 foot width identified for 
larger transportation facilities.
Attractions
    There are numerous spectacular natural attractions along the 
existing county roads and state highways. Many more attractions exist 
within walking distance from major transportation facilities. However, 
the current monument management plan prohibits the development of 
pathways, trails, and facilities that will accommodate visitors and 
especially Americans with disabilities.
    Adequate flexibility needs to be provided, so as attractions are 
identified, they can be accessed by those desiring to participate in 
tourism-based activities. More remote attractions which require 
knowledge of the backcountry, technical skills, or strenuous efforts 
can be reserved for those individuals and groups that desire to 
participate in less developed recreation oriented activities. The area 
is more than large enough to easily accommodate both without 
competition.
Community Development
    It is recognized that development of tourism related facilities is 
best located in communities adjacent to parks and monuments and not on 
public lands. Tourism related facilities accommodating a large number 
of people, large developed campgrounds, eating facilities, and other 
convenience based infrastructure should be located on private lands 
within towns and communities. Facility development within the parks and 
monuments should be limited and relatively primitive. Campgrounds 
should not compete with local businesses. Concessionaires and tours 
should be housed primarily in nearby communities, parking areas should 
be adjacent to county roads and trails, and local communities should be 
sustained in every manner possible. Likewise, employee housing, as much 
as possible, should be included in the communities so that park and 
monument employees become integrated into the communities where they 
live to develop relationships with the local residents and better 
understand the relationship between Federal lands and local 
populations.
Scenery
    Visitor use surveys conducted by various Federal agencies indicate 
motorized recreation for viewing of scenery and pleasure is the 
dominant recreational activity on public lands in Garfield County. The 
scenery is what draws people to the area. State highways and county 
roads need to be augmented with adequate turnouts, viewpoints, and 
parking areas. Rest stops need to be carefully placed, so viewing may 
be maximized and safety ensured. Wherever possible, such parking 
facilities should also be tied to attractions, interpretive sites, and 
points of interest.
Traditional Uses
    One of the major problems with the creation of the Monument in 1996 
was subsequent management attempted to curtail or eliminate traditional 
activities that have occurred in the area since settlement. Hunting, 
fishing, hiking, camping, rock hounding, backpacking, canyoneering, 
mountain bike riding, ATV use (limited to existing roads), and other 
activities that have been going on for half a century need to be 
authorized and continued. Significant work has been done by the Utah 
Division of Wildlife Resources (UDWR) and others to restore various 
wildlife habitats and populations. Wildlife management is a significant 
aspect of UDWR's program and must continue to be managed by the state 
of Utah. Proper wildlife management, hunting, and fishing within 
Federal designations must continue to be under the jurisdiction of the 
state of Utah and needs to be supportive of local values and interests. 
The Monument must be able to work better with UDWR and other wildlife 
organization to enhance and restore critical wildlife habitat and 
ensure that hunting those areas, as well as other traditional uses, 
will continue in perpetuity.
Domestic Livestock Grazing
    Domestic livestock grazing is a critical part of the local heritage 
and continues to be a significant economic driver. It is engrained and 
entwined in our way of life and culture and is under constant threat 
from outside special interests. As a County Commissioner, I seek a 
voice for the quiet rancher working tirelessly to provide for his 
family as many previous generations did before him. Currently that 
rancher is not sure whether he will be able to continue ranching, what 
future monument boundary changes will mean for his family and heritage, 
or whether there will even be a resource to graze. Those families need 
certainty in the future from Congress. Livestock grazing must be 
continued and enhanced through reasonable and sustainable vegetative 
and water projects in perpetuity to guarantee this part of our heritage 
in the American West is not lost.
Hiking and Camping
    Hiking and camping activities need to be supported through 
development of appropriate facilities. As these activities get 
increasingly remote, the facilities can be reduced accordingly. However 
signing needs to be available at all popular hikes and should be 
developed in a manner that is conducive to the activities. There must 
always be adequate information available, so someone who is lost or 
having trouble will have an opportunity to receive the support they 
need.
Scientific Research and Museum
    Garfield County views the loss of scientific resources 
(archeological and paleontological) as an extraction industry that has 
resulted in a loss to the local area. High on Garfield County's list of 
needs is Scientific Research and a Museum. The science industry is a 
clean technology that would provide valuable jobs, a critical element 
to a diversified economy, and other benefits to areas that are losing 
valuable archeological and paleontological artifacts. The state of 
Utah, Garfield County, public entities, and private enterprise are 
engaged in an effort to develop a human history museum in Escalante. It 
is partially complete; and preliminary plans are designed to 
accommodate Federal participation in the scientific research and the 
curation of artifacts. Archeological and paleontological specimens 
collected from Kane and Garfield Counties should remain here, and the 
scientific research associated with them should also be conducted here. 
Colleges in Utah have partnered with Bryce Canyon National Park to 
provide joint educational opportunities connected with college degree 
programs. Those efforts should be expanded to include the communities 
and schools in the Grand Staircase-Escalante Canyons area. Kane and 
Garfield Counties could become science hubs of unique resources and 
bolster the scientific and educational opportunities not usually 
provided rural counties. However, these endeavors are only guaranteed 
through local input in the management of those resources as Federal 
management has been ineffective thus far.
Consistency, Cooperation and Coordination
    Garfield County recognizes great value in consistency, cooperation, 
and coordination between the various levels of our Nation's 
governments. Garfield County desires to be fully engaged in the 
planning and development phase for the modified monument and adjacent 
lands. Garfield County has gone to significant effort to educate itself 
regarding Federal processes associated with CEQ regulations, NEPA, 
FLPMA, and Park Service regulations and guidance. We believe the County 
is in a position to be a cooperating agency and valuable resource on 
every plan or project proposed by the Federal Government. Additionally, 
we believe, in many instances, we are ideally suited to serve as a 
joint lead agency, especially where the facilities either impact or are 
maintained by Garfield County. This is certainly true for the 
transportation network which is entirely maintained by Garfield County. 
It is also true for those activities that involve search and rescue, 
law enforcement, emergency medical services, solid waste collection and 
disposal, water quality governed by the Clean Water Act, and air-
quality governed under the provisions of the Clean Air Act. Management 
plans for monuments and parks are best developed in cooperation and 
coordination with local elected officials, and FLPMA mandates that 
Federal plans be consistent with state and local plans to the maximum 
extent allowed by law. That has not happened in the last 20 years and 
nothing but conflict is the obvious result. Local elected officials 
must have a meaningful seat at the table throughout the planning and 
development process and must be full partners with local agency 
executives in the development and implementation of resource management 
plans.
                               conclusion
    H.R. 4558 best provides for the best management of the incredible 
beauty and resources located in Garfield and Kane Counties. Through 
local input working in cooperation with Federal land managers, we can 
achieve the goals of enjoyment and use of the land now and preservation 
of these lands for future generations of all Americans, not just a 
select few. Only the principles in this legislation allow us to return 
these public lands back to public hands.
    There will be some who criticize this testimony and attempt to pick 
it apart word by word. Admittedly, I am not the most eloquent of 
individuals in verbal or written presentations. However, I can assure 
you, my sincerity cannot be questioned.
    Local elected officials know the land best, know what their 
constituents need, and know how to best serve the visiting public while 
preserving the resources that brought them to our area in the first 
place. And we have skin in the game. We will be here long after Federal 
officials are transferred and the visitors return home. We will live--
and die--with the management decisions that are made. We should have 
representation in those decisions.
    There is adequate room in the concepts I have presented for 
improvement. Things may need to be altered, changed, and modified. But 
there is no fault in local elected officials having a say in what 
happens within their jurisdiction; and there is no deficiency in our 
ability to solve differences if we want to. There is adequate acreage 
for a variety of experiences; there are adequate resources; there are 
technical skills that can be employed; there are a host of management 
structures that can be used; and importantly, Mother Nature has the 
ability to assist us and correct our minor flaws. But even she cannot 
help us if groups or individuals focus on exclusion and conflict rather 
than solutions. And she smiles on those industrious local officials 
that do their best to cooperate with her and preserve her resources for 
current and future generations.
    We are hopeful that, after careful consideration, Congress will 
take appropriate steps to make Garfield County's lands more available 
to the public, better managed by including local management and more 
supportive of local and national socio-economic needs, by quickly 
passing this bill with bi-partisan support, showing Garfield County 
that Congress has no longer forgotten them. Thank you for the 
opportunity of speaking today.

Exhibit 1: A chart of Garfield County school enrollment depicting the 
period of time the Grand Staircase-Escalante National Monument has been 
in existence. Please note, it has not broken out the Escalante High 
School enrollment. Had that specific school been shown separately, you 
would notice more pronounced impacts that are shown on Exhibit 1. We 
can provide that data as needed.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Exhibit 2: A graph depicting unemployment figures from Garfield 
County with those from Cedar City, Utah and St. George, Utah.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Among the permanent workforce, about one person in six will be 
unemployed in January every year.

    While Garfield County unemployment dropped below the regional and 
state averages in the summer months during the early years of the Great 
Recession, it exceeds those areas in recent years.

                                 *****

                              ATTACHMENT 1

    The following information is provided to augment testimony provided 
at the hearing of December 14, 2017 for the Grand Staircase-Escalante 
Enhancement Act

    1. Visitation statistics for areas near Willow Canyon Outdoor 
Company, Kanab Utah
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    2. Testimony was provided indicating GSENM visitation at the 
visitor's centers was approximately 1 million visitors per year. The 
visitor's centers for the GSENM are located primarily in established 
communities outside the monument boundaries and are located along US-89 
or State Highway 12. Visitation at these established facilities within 
municipal limits is not reflective of visitation within the Monument 
boundaries. The visitation figures at the visitor's centers more 
accurately reflect motorists on US-89 and SR-12 that need to use the 
public restroom or want to take a short break from driving.

    Although Monument visitation figures are not highly reliable, GSENM 
staff indicate Lower Calf Creek Falls is the highest used area in the 
entire Monument and receives somewhere between 30,000 and 35,000 
visitors per year. The second highest use area is Dry Fork with the 
Peekaboo and Spooky slot canyons. Visitation approximations indicate a 
combined total of only 22,000 visitors per year at the two sites. In 
other words, the total visitation at the two most popular sites in the 
GSENM is less than 60,000 per year. Discounting drive through traffic 
on US-89, SR-12 and county maintained routes, it is unlikely total 
visitation in the GSENM exceeds 180,000 per year or 1/10th person per 
acre per year. Comparatively, visitation at Bryce Canyon National Park 
(which abuts the GSENM and is located in Garfield and Kane Counties) is 
more than 68 persons per acre per year--approximately 700 times more 
than the GSENM.

    3. A witness (Susan Hand) at the December 4, 2017 hearing indicated 
they did not desire to take their children hiking in an area where 
hunting was allowed. She then indicated they had gone hiking in Lower 
Calf Creek Falls in GSENM. It should be noted hunting is allowed in 
Lower Calf Creek Falls (except in the established campground) and has 
been an ongoing authorized use during the 20 years since the Clinton 
Proclamation in September 1996. It is authorized today under the 
President Trump modification; and it will not change with designation 
of a National Park proposed by the Stewart legislation.

    4. Ms. Hand also testified over 120 outfitters and guides hold 
permits on GSENM. She also testified, ``Utah's outdoor recreation 
provides 110 jobs that depend on protected public lands. It should be 
noted the witness did not testify that Kane and Garfield Counties had 
the 110 jobs. Those jobs were identified with the statewide economy and 
do not necessarily benefit the local economies of Kane and Garfield 
Counties. Also notable, Kane and Garfield Counties already house 
protected lands that make up approximately 90 percent of their land 
base. Nothing in the Stewart legislation prohibits continuation or 
expansion of the outfitter and guide business; and nothing prevents 
continued use of the lands by the 110 jobs. In fact, the Stewart 
legislation enhances such opportunities.

    5. Although visitation numbers are significantly less than several 
protected areas in and near Garfield County, Utah, road use and road 
maintenance needs have increased. For instance, Garfield County has 
been required to grade Hole in the Rock Road approximately 20 times per 
year in order to provide a suitable surface for passenger vehicles. The 
County has also been called out by BLM to rescue motorists stranded by 
floods. Yet, at the same time as road maintenance needs are increasing, 
the current Monument Management Plan prohibits any surface improvements 
to the county's roads in the Monument. The Plan prohibits making access 
safer and more reliable--hardly management that protects the public 
interest.

    6. Representative Stewart's proposed legislation recognizes 
Garfield and Kane Counties' responsibility regarding Hole in the Rock 
Road. BLM's Interior Board of Land Appeals (IBLA) recognized a similar 
responsibility in 1988. Exhibit 1 is a document in which IBLA 
recognizes the Hole in the Rock Road to be an RS 2477 right-of-way. The 
recognition of Hole in the Rock Road as a County managed transportation 
facility is codification of previous BLM decisions.

                                 *****

The following document was submitted with this supplement to Mr. 
Pollock's testimony. This document is part of the hearing record and is 
being retained in the Committee's official files:

    --Exhibit 1. August 17, 1988 IBLA Ruling

                              ATTACHMENT 2

    1. Mapping indicates Washington County Utah was included in the 
Headwaters study. Washington County, Utah is the only County in the 
study that does not contain a monument. The table below lists pertinent 
facts about the Headwaters counties.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    2. Mapping indicates Washington County is included in the 
Economic region impacted by the Grand Staircase-Escalante National 
Monument. Washington County has a population approximately 12 times 
that of Kane and Garfield Counties combined. So it is the dominant 
economic driver.

    3. Headwaters says. ``Services industries that employ a wide range 
of people--from doctors and engineers to teachers and accountants--have 
driven economic growth and now make up the large majority of jobs, even 
in rural areas.'' Service industries also employ motel maids, bus boys 
and dishwashers. In 1996 there were three engineers in Garfield County. 
Now there is one.

    4. Income per capita has risen because the loss of children. 
Husband & wife at $48K each with 1 child was $32K per capita. 51 
employees at $48K with 4 total kids is $44K per capita.

    5. From https://headwaterseconomics.org/wp-content/uploads/
Escalante.pdf.

        ``Services jobs--such as doctors, engineers, and teachers--
        account for the majority of employment growth in the Grand 
        Staircase-Escalante Region in recent decades. These jobs are 
        increasingly mobile, and many entrepreneurs locate their 
        businesses in areas with a high quality of life.

        From 1996 to 2008, in the Grand Staircase-Escalante Region:

    <bullet> Services grew from 3,627 to 5,749 jobs, a 59 percent 
            increase

    <bullet> Non-Services shrank from 1,294 to 1,148 jobs, an 11 
            percent decrease''

The summary indicates service jobs grew by 2,122 jobs. If doctors, 
engineers and teachers make up a majority that would mean at least 
1,062 new doctors, engineers and teachers in Kane and Garfield 
Counties. Clearly the report is about Washington County.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                                            

    Mr. McClintock. Thank you for your testimony.
    The Chair now recognizes Ms. Susan Hand, General Manager 
and Outdoor Goods Buyer for Willow Canyon Outdoor, from Kanab, 
Utah.

  STATEMENT OF SUSAN HAND, GENERAL MANAGER AND OUTDOOR GOODS 
                  BUYER, WILLOW CANYON OUTDOOR

    Ms. Hand. Thank you, Chairman McClintock, Ranking Member 
Hanabusa, and members of the Subcommittee, for this opportunity 
to testify.
    I am co-owner and manager of Willow Canyon Outdoor Company 
in Kanab, Utah. I am wildly passionate about the magnificent 
landscapes that comprise my homeland. But I came to talk to you 
about our local economy and how the Grand Staircase-Escalante 
National Monument has supported it over the last 21 years.
    I will start with an excerpt of an Op-Ed piece I wrote as 
the review of our national monument began.

    With my husband and two small children, I settled in Kanab 
in 1994. We purchased a dilapidated commercial property three 
blocks from a humble downtown. On one side, a shuttered garage 
cradled decades of junk. On the other was an abandoned bakery. 
Old signs from long defunct enterprises stood like ghosts on 
either side of our dream. A herd of rusting cars grazed the lot 
behind ours.

    We stripped our small building to its bones, opening just 
in time for Christmas. We underestimated the challenge of 
business in this diminutive rural town. A long winter stretched 
into a long hard year. While our business slowly grew, our 
savings quickly shrank.

    The following year, 1996, President Clinton invoked the 
Antiquities Act to proclaim the Grand Staircase-Escalante 
National Monument. It was controversial at the time and, 
clearly, remains so.

    Still, in the couple decades since, I have witnessed 
positive outcomes for our business, our community, and the 
myriad visitors from around the world that gather here in awe. 
Now, you can have your car serviced in the garage next door, 
you can stay in the three-story hotel that replaced the old 
bakery. Two additional four-story hotels have opened down the 
street, and another is under construction. You can breakfast at 
our delightful new bakery. In fact, several new restaurants are 
thriving, but you will need a reservation--inconceivable 20 
years ago. Come morning, a host of outfitters will offer to 
show you the Grand Staircase.

    Over 120 guides hold permits on the Grand Staircase-
Escalante. Utah's outdoor recreation provides 110 jobs that 
depend on protected public lands. Jobs tied to the monument 
can't be outsourced.
    Our monument created a diverse spectrum of revenue flows, 
extending well beyond travel and tourism. It provided an 
extraordinary quality of life. People choose to retire in the 
area or keep a second home. Some are entrepreneurs or work 
remotely. This activity increased property values as well as 
incomes.
    Visitation is exploding. A million people stopped in the 
visitors centers last year, while countless others visited the 
monument independently. In the town of Escalante, transient 
room taxes increased by 24 percent year to date.
    The chamber of commerce representing Boulder and Escalante 
have been vocal advocates of monument. In Kanab, a town of 
4,000, businesses organized a rally that drew 400 citizens.
    The destruction of our monument threatens our economic 
future. The stroke of a pen reduced our monument by half, 
severed it into fragments, and diluted protections. The Utah 
delegation is bent on prioritizing grazing and mineral 
extraction. We are offered a national park and preserve. It is 
like no other national park we know. It doesn't respect the 
Organic Act of 1916. It enshrines grazing and mandates hunting, 
an awkward mix with hikers and children. Four county 
commissioners and a state representative would dominate the 
management. This is unprecedented.
    Those who would manage the public lands want a coal mine. 
The one proposed prior to the monument designation promised 360 
double-trailer trucks through Kanab every day. That would 
damage the tourism economy and quality of life. Meanwhile, jobs 
in the solar industry far outnumber those in coal. Nor will 
grazing save us. Cattle ranching has great cultural 
significance in our communities, but it is a marginal 
enterprise in the high desert, which is why it is subsidized. 
Agriculture represents only a tiny portion of our region's 
economy.
    America's national monuments are wildly popular, as the 
review comment period plainly shows. Most Utah citizens favor 
protection of their monuments. On the local level, Boulder, 
Escalante, and Kanab businesses submitted 80 letters to 
Secretary Zinke advocating for our monument. Kanab and Kane 
County public hearings drew crowds where the vast majority 
voice support. To attack national monuments batters our local 
economies and communities. It ignores the will of the American 
people, and this land belongs to all Americans.
    To codify the unraveling of the Grand Staircase-Escalante 
National Monument is to disrespect that. To throw in a national 
park is to apply lipstick. Thank you.

    [The prepared statement of Ms. Hand follows:]
  Prepared Statement of Susan K. Hand, General Manager, Willow Canyon 
                            Outdoor Co, Inc.
    Thank you for the opportunity to testify. I am Susan Hand, co-owner 
and manager of Willow Canyon Outdoor Company in Kanab, Utah. Our shop 
sells books, espresso, and outdoor gear.
    I am wildly passionate about the magnificent landscapes that 
comprise my homeland in southern Utah. But that is not what I came to 
talk about. I'm here to talk about money, about resources and profit. 
I'm here to share with you what I've witnessed over the last 23 years, 
as a member of Kanab's business community.

    To that end, I offer this excerpt from an Op-Ed piece I wrote as 
Secretary Zinke's review of our national monuments was just beginning:

        I dwell on the flanks of the Grand Staircase. I was drawn here 
        like a bee to a blooming flower--attracted to the stunning 
        landscape and the opportunity to make a living. With my husband 
        and two small children, I settled in Kanab in 1994.

        We purchased a dilapidated commercial property three blocks 
        from a humble downtown. On one side, a shuttered garage cradled 
        decades of junk. On the other was an abandoned bakery. Old 
        signs from long-defunct enterprises stood like ghosts on either 
        side of our dream. A herd of rusting cars grazed the lot behind 
        ours.

        We stripped our small building to its bones and created a shop 
        to sell books, coffee, and outdoor gear, opening just in time 
        for Christmas. We underestimated the challenge of business in 
        this diminutive, rural town. A long winter stretched into a 
        long, hard year. While our business slowly grew, our savings 
        quickly shrank.

        The following year, 1996, President Clinton evoked the 
        Antiquities Act to proclaim the Grand Staircase-Escalante 
        National Monument. It was controversial at the time--and 
        remains so. Still, in the couple decades since, I've witnessed 
        positive outcomes for our business, our community, and the 
        myriad visitors from around the world that gather here in awe.

        Now you can have your car serviced in the garage next door. You 
        can stay in the three-story hotel that replaced the old bakery. 
        Two additional, four-story hotels have opened down the street, 
        and another is under construction. You can breakfast at our 
        delightful new bakery. In fact several new restaurants are 
        thriving, but you'll need a reservation--inconceivable 20 years 
        ago! Come morning, a host of outfitters will offer to show you 
        the Grand Staircase.

        Meanwhile, the town ushered in a new hospital, school, library, 
        and swimming pool. The Bureau of Land Management, which 
        oversees the Monument, opened a visitor center and a comely 
        administrative center.

    We can't know that my little town's economic success is a direct 
result of the Monument. But common sense, as well as research conducted 
by Headwaters Economics and the University of Utah, confirms that the 
Monument has not had an adverse effect.
    On the contrary, economic studies reveal that such protected public 
lands are economic engines for nearby communities. The 1996 Monument 
designation brought a ``diverse spectrum of revenue flows.'' Kanab's 
economic expansion extends well beyond travel and tourism. People 
choose to live near the Monument because of the extraordinary quality 
of life. Some have retired there, some keep a second home, some are 
entrepreneurs, and some are able to work there remotely. This activity 
has increased property values as well as incomes.
    But if we want to talk about travel and tourism, Kanab has a long, 
rich tradition. Dave Rust, born in 1874, grew up in Utah to marry the 
daughter of Kanab's mayor, Dee Woolley. He embarked on a 33-year career 
as a guide and outfitter based in Kanab. Since then, travel and tourism 
have become the backbone of our economy.
    Ranching is a charming bit of southern Utah culture, but grazing 
cattle on the high desert has always been a marginal enterprise, 
dependent on Federal subsidies. The allotments were scarcely changed by 
the Monument. To enshrine cattle grazing will not develop a strong 
economy.
    How about the coal beds of the Kaiparowitz Plateau? The coal mine 
proposed prior to 1996 promised 360 double-trailer trucks through Kanab 
every 24 hours. Who wants that in their town? In the meanwhile, the 
market for coal has gone bust.
    Now, our economic future is at risk. In fact the damage may already 
be underway. Whereas Willow's sales grew steadily over the last couple 
of decades, peaking in 2016, this year looks different. In the first 5 
months of 2017, we had 6 percent growth year-to-date; but since then 
our sales dropped by 4 percent as compared to the same period last 
year.
    The downturn coincides with negative press generated by the 
monument review and Zinke's visit to Bears Ears and Grand Staircase-
Escalante. Social media reveals that a boycott against Utah is 
underway. The public perception is that the Utah delegation and the 
current Administration have assumed a hostile attitude toward our 
state's national monuments--which were wildly popular.
    Frustrated with the Utah delegation, the international Outdoor 
Retailer trade show, which branded our state as an outdoor mecca for 
the last two decades, has left Salt Lake City. We're worried about 
long-term repercussions.
    Last year, we invested in a new front on our commercial building. 
We planned to remodel our espresso bar kitchen over the coming winter, 
but with the downturn in sales we've deferred that. We've also 
suspended plans to hire a new, full-time position--Community Liaison.
    We don't feel that the excised monuments and proposed ``national 
park'' will ever replace the loss of the Grand Staircase-Escalante 
National Monument.

                                 ______
                                 

    Mr. McClintock. Thank you for your testimony.
    Our final witness is Ms. Vicki Varela. She is the Managing 
Director of Utah's Office of Tourism, Film, and Global Branding 
from Salt Lake City, Utah. Welcome to the Subcommittee.

 STATEMENT OF VICKI VARELA, MANAGING DIRECTOR, UTAH OFFICE OF 
               TOURISM, FILM, AND GLOBAL BRANDING

    Ms. Varela. Good morning, Chairman McClintock, Ranking 
Member Hanabusa, and members of the Subcommittee. I am here to 
testify in support of H.R. 4558, establishing Escalante Canyons 
National Park and Preserve in south central Utah.
    If you have been to Utah, you know that Mother Nature 
played favorites, providing us the greatest snow on Earth and 
spectacular red rock landscapes. This proposed national park 
features winding slot canyons, other worldly sandstone domes 
and plateaus, and pinyon-juniper woodland against shimmering 
palettes of red.
    H.R. 4558 gives this area national park recognition that is 
long overdue. The bill protects these beautiful places in 
perpetuity for some of the best exploration and recreation on 
Earth.
    The amenities offered in national parks, including trails, 
signage, transportation access, parking, and staff, will enable 
us to properly welcome visitors from Utah and all over the 
world. The designation will generate prosperity in an 
economically distressed region of our state.
    Tourism is big business in Utah, generating $8.4 billion in 
spending last year, and creating more than 144,000 jobs. This 
created household relief of $1,226. The Mighty 5 promotion of 
our five national parks and the campaigns that followed are the 
most successful tourism marketing campaigns in Utah history, 
generating $6.72 billion of economic benefits. We want to 
provide Garfield County and the surrounding region a larger 
share of this tourism prosperity, and also provide a welcome 
mat for other economic development.
    An attractive place to visit is also a more attractive 
place to work or relocate a business. National park designation 
is the way to accomplish these community goals.
    Escalante Canyons National Park and Preserve would be 
located at the midpoint of one of the most glorious roads on 
Earth, the All American Road: Scenic Byway 12. Two of Utah's 
five national parks bookend this scenic byway: Bryce Canyon to 
the southwest and Capitol Reef to the northeast. This 122-mile 
ribbon of road with a new national park in the middle will be 
an unparalleled triangle of adventure and discovery in the 
heart of south central Utah.
    Utah's economy ranks among the best in the Nation, but we 
have a silent recession in many rural communities. Young people 
are fleeing the towns where they grew up. They can't find work 
or community to sustain them. Governor Gary Herbert has called 
on Utahns to work together to create 25,000 jobs in rural Utah 
by 2020. Escalante Canyons National Park and Preserve is a 
missing puzzle piece to create many jobs.
    You may wonder why we aren't already promoting this area. 
Well, we do feature a limited set of destinations and 
recommendations on our website. The lack of funding for BLM 
staff, signage, and visitor amenities as simple as restrooms 
have made it impractical to promote. To put it simply, it is 
not safe for many visitors.
    National park status and all the amenities that come with 
it is an important tool for making the landscape more 
accessible. Establishing this new national park will also 
distribute demand from national parks that experience seasonal 
constraints and overcrowding. It will spread out the love.
    It is important to note that our national parks are 
severely underfunded. Utah's Zion National Park had a 60 
percent increase in visitation since 2010, paired with a 3.7 
percent funding cut. That is not tenable. While national park 
status will dramatically improve investment in the area, it is 
essential that national park funding also be restored. I know 
this is important to Congressman Stewart and others. I look 
forward to seeing long-term investment restored to protect 
national parks for generations to come.
    In summary, investing in our landscapes for visitation is a 
path to jobs and vibrant communities. These communities deserve 
to have their children stay in the community where they were 
raised. The Escalante Canyons National Park and Preserve is the 
breakthrough to make this happen.

    [The prepared statement of Ms. Varela follows:]
 Prepared Statement of Vicki Varela, Director of Utah Office of Tourism
    Good morning, Chairman McClintock, Ranking Member Hanabusa, and 
members of the Subcommittee. My name is Vicki Varela. I am the director 
of tourism, film and global branding for the state of Utah. I am here 
to testify in support of H.R. 4558, establishing Escalante Canyons 
National Park and Preserve in south central Utah.
    If you have been to Utah, you know that Mother Nature played 
favorites, providing us with The Greatest Snow on Earth<SUP>'</SUP> and 
extraordinary red rock landscapes. This proposed national park features 
winding slot canyons, other-worldly sandstone domes and plateaus, and 
pinyon-juniper woodland against shimmering palettes of red. H.R. 4558 
gives this area National Park recognition that is long overdue. The 
bill protects these beautiful places in perpetuity for some of the best 
exploration and recreation on earth. The amenities offered in national 
parks--trails, signage, transportation access, parking and staff--will 
enable us to properly welcome visitors from all over the world. This 
designation will generate prosperity in an economically distressed 
region of our state.
    Tourism is big business in Utah, generating $8.4 billion in 
spending last year, creating more than 144,000 jobs and $1,226 of tax 
relief per Utah household. The Mighty 5<SUP>'</SUP> promotion of our 
five national parks and the campaigns that followed are the most 
successful tourism marketing campaigns in Utah history, generating 
$6.72 billion of economic benefits. We want to provide Garfield County 
and the surrounding region a larger share of this tourism prosperity, 
and also provide a welcome mat to other economic development. An 
attractive place to visit is also a more attractive place to work or 
relocate a business. National park designation is the way to accomplish 
these community goals.

    Escalante Canyons National Park and Preserve would be located at 
the midpoint of one of the most glorious roads on earth--the All-
American Road: Scenic Byway 12. Two of Utah's five national parks 
bookend this scenic byway--Bryce Canyon to the southwest and Capitol 
Reef to the northeast. This 122 mile ribbon of road--with a new 
national park in the middle--will be an unparalleled triangle of 
adventure and discovery in the heart of south central Utah.

    Utah's economy ranks among the best in the Nation, but we have a 
silent recession in many rural communities. Young people are fleeing 
the towns where they grew up. They can't find work or community to 
sustain them. Governor Gary Herbert has called on Utahns to work 
together to create 25,000 jobs in rural Utah by 2020. Escalante Canyons 
National Park and Preserve is a missing puzzle piece to create many 
jobs.

    You may wonder why we aren't already promoting this area. While we 
do feature a limited set of destinations and recommendations on our 
website, the lack of funding for BLM staff, signage and visitor 
amenities as simple as restrooms have made it impractical to promote. 
To put it simply, it is not safe for many visitors. National park 
status and all the amenities that come with it is an important tool for 
making this landscape more accessible. Establishing this new national 
park will also distribute demand from national parks that experience 
seasonal constraints and overcrowding. It will spread out the love.

    It is important to note that our national parks are severely 
underfunded. Utah's Zion National Park had a 60 percent increase in 
visitation since 2010 paired with a 3.7 percent funding cut. While 
national park status will dramatically improve investment in the area, 
it is essential that national park funding also be restored. I know 
this is important to Congressman Stewart and the rest of you. I look 
forward to seeing long-term investment restored to protect national 
parks for generations to come.

    In summary, investing in our landscapes for visitation is a path to 
jobs and vibrant communities. Tropic, Cannonville, Henrieville, 
Escalante, Boulder, Grover and Torrey all deserve a bigger share of 
Utah's economic prosperity. They deserve to have their children stay in 
the community where they were raised. The Escalante Canyons National 
Park and Preserve is the breakthrough to make this happen.

    Thank you again for the opportunity to offer input, and I'm happy 
to answer any questions.

                                 *****

                               ATTACHMENT

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                                               

 Questions Submitted for the Record by Rep. Hanabusa to Vicki Varela, 
                    Director, Utah Office of Tourism

    Question 1. Does the Utah Office of Tourism work directly with 
tourism boards and chambers of commerce that represent the region 
affected by this legislation?

    1a. If so, please describe the nature of your relationship with 
these organizations?

    Answer. The Utah Office of Tourism collaborates and welcomes input 
from regional tourism partners and chambers of commerce. There is no 
formal reporting system or methodology for collecting feedback.

    1b. Do the local tourism boards in the area impacted by H.R. 4558 
support this bill and the effort to dissolve Grand Staircase-Escalanate 
National Monument into three separate and smaller national monuments?

    Answer. There is not a consensus. There is some enthusiasm among 
tourism organization in the area, while other entities would prefer to 
retain the original monument boundaries.

    Question 2. In the testimony provided to the Committee, you support 
the establishment of a new national park unit because it would bring 
infrastructure, signs and other improvements that BLM has not provided. 
Your testimony also points out that there has been a 3.7 percent budget 
cut to Utah's National Parks, while visitation has risen. President 
Trump's FY 2018 budget proposed cutting all Department of the Interior 
agencies by 10-13 percent, with the National Park Service facing a cut 
that would eliminate over 1,000 staff positions. Do you support 
President Trump's proposed 10 percent cut to the National Park Service?

    Answer. I oppose cutting the national parks budget. The Utah Office 
of Tourism is actively engaged in trying to increase funding for 
national parks. Zion National park has experienced a 60 percent 
increase in visitation over the last 5 years, concurrent to a 3.7 
percent budget cut. Protecting the quality and safety of the national 
park experience requires increased investment in operations and 
infrastructure.

    Question 3. Do you support cutting funds from other national park 
units in Utah to support the new park established by H.R. 4558?

    Answer. No.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much.
    I want to thank all the witnesses for their testimony. 
Normally, we go in seniority order here on the Subcommittee, 
but those lists are modified by the Majority and the Minority, 
depending upon the circumstances, and we will do that in this 
case. I will begin by recognizing Mr. Stewart for 5 minutes.
    Mr. Stewart. Thank you, Mr. Chairman. You are very gracious 
in allowing me to do this. And to the Members, thank you for 
giving me some time.
    I would like to hit a couple of things just very quickly. I 
am aware that votes are coming and we do need to go quickly.
    Ms. Hand, I would to address a couple of questions to you, 
if I could. Are you aware that there are national parks that 
allow for grazing at this time?
    Ms. Hand. Yes, I am.
    Mr. Stewart. Do you know how many?
    Ms. Hand. I don't know how many. I know there are some.
    Mr. Stewart. It is about 20.
    Ms. Hand. OK, thank you.
    Mr. Stewart. And are you aware that there are some that 
also support hunting?
    Ms. Hand. I am aware of preserves, park preserves that do 
that, yes.
    Mr. Stewart. Would you suggest that we would repeal those 
hunting and grazing rights in those parks that now allow for 
that?
    Ms. Hand. I would not necessarily, but I think it is a bold 
move to----
    Mr. Stewart. Why is this any different?
    Ms. Hand. May I finish, please?
    Mr. Stewart. Yes.
    Ms. Hand. I think it is a bold move to suggest this park 
and preserve without the attending maps. It is difficult to 
comment, to tell you the truth, on the specifics, but I do know 
the area of Calf Creek, I have hiked there, my son broke his 
foot at the waterfalls. I remember it very well. The landscape 
there is a very broken one, a very challenging terrain. So, to 
imagine how you put hikers, hunters, and trapping all in the 
same area is a bit of a challenge. I think the management will 
be difficult.
    Mr. Stewart. I think it is possible. I agree with you, some 
of this area is challenging, but we have done it in other 
parks. I think we can certainly do it in this. I am glad that 
you would not suggest repealing it where this access granted in 
these other parks.
    Your primary interest is in tourism. Is that true? Your own 
personal financial interest?
    Ms. Hand. My personal financial interest is in tourism, 
although we also sell books and espresso at our store.
    Mr. Stewart. OK. Do you have any employees?
    Ms. Hand. I do. We employ seven people.
    Mr. Stewart. And would you mind telling us how much you pay 
your employees?
    Ms. Hand. Our pay scale ranges from $10 to just over $20 an 
hour.
    Mr. Stewart. OK.
    Ms. Hand. We do have benefits, health benefits for full-
time employees. We also have a simple IRA retirement plan for 
them, and they all earn sick and vacation leave.
    Mr. Stewart. And are any of them seasonal employees?
    Ms. Hand. No. They are all permanent employees.
    Mr. Stewart. So, at $10 an hour, that is roughly $20,000 a 
year. Can you raise a family on $20,000 a year?
    Ms. Hand. I would turn that question back to you and ask 
you to reflect on the minimum wage, I think. We are trying to 
stay ahead of that.
    Mr. Stewart. OK. My point is that the claim is often made, 
and again, I want to emphasize, I support tourism. That is why 
we have Vicki here. We are proud of tourism. We want you to do 
well.
    Ms. Hand. Uh-huh.
    Mr. Stewart. We want you to have 100 employees, but the 
reality is, as I stated in my opening statement, it is very 
difficult to raise a family in a tourism industry. There are a 
few people who do really well. The owners, primarily. Many of 
them are seasonal. The vast majority of them are seasonal. And 
the point is, the perception is often made, well, if we just 
offer tourism and everything is great down there and these 
families do well. They don't, because the vast majority of them 
can't make a living in a tourism industry.
    Ms. Hand. One of the----
    Mr. Stewart. So, I would ask you, I will get to my question 
now, why would you object to fostering tourism through the 
creation of a national park?
    Ms. Hand. I want to say that the outdoor industry is much 
bigger than retail shops like mine. In Utah, we have companies 
like Black Diamond, Petzl, Klymit, Chums, EK, Imlay Canyon 
Gear, Kuhl, Dowson, and many others that I don't have time to 
name. These are not retail jobs, these are manufacturing jobs.
    Mr. Stewart. But they are not located in this area.
    Ms. Hand. They are not located in this area, but these 
public lands do support those jobs, 110,000 jobs in Utah.
    Mr. Stewart. But we are talking about the local community. 
And I am asking----
    Ms. Hand. And if we talk about the local community, what I 
would say is one of the biggest problems our local community 
faces is that the drive to sustain tourism has led many people 
in our community to transfer their properties from rental 
properties into vacation rental properties, short-term rentals, 
so there is a housing shortage in our area, and our 
construction business is being driven by that, but it is not 
keeping up with the demand.
    That is one of the problems that those wages do create a 
problem for.
    Mr. Stewart. OK. I appreciate that. My time is almost up. I 
would like to just be clear. You support the tourism industry, 
you are asking us to encourage that, and yet you are opposing 
the creation of a national park. Is that true?
    Ms. Hand. I oppose the creation of a national park as 
described through this bill, undoubtedly. I will be very solid 
on that.
    Mr. Stewart. And the reason is?
    Ms. Hand. The reason is I feel that this codifies an 
inappropriate decision and one that puts at risk an economy 
that has come to rely over more than two decades on the Grand 
Staircase-Escalante National Monument.
    Mr. Stewart. OK. Again, we are trying to help you, we are 
trying to create more tourism, not less.
    Mr. Chairman, thank you for yielding. I appreciate it.
    Mr. McClintock. Thank you.
    Next on the Minority's list is Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    And to begin, Representative Stewart, I will gladly have 
you jump on my minimum wage increase bill if you are interested 
in minimum wage for our workers.
    To begin with, I have a question for Mr. Pollock. Mr. 
Pollock, you are the Chairman of the Garfield County 
Commission. Is that correct?
    Mr. Pollock. Yes, sir.
    Mr. Gallego. In your testimony, you state that local 
management is better than national management because you can 
protect the resources better. Can you share with us what 
qualifications you believe or your management team believe has 
to manage a national park?
    Mr. Pollock. I will give you one example--and by the way, 
Bryce Canyon National Park, when you talk about tourism, that 
is 35,000 acres. You still have a national monument, basically, 
that you control that is over 1 million acres. And I want to 
make that point.
    To get back to your question, yes, I will give you one good 
example. A lot of this land needs to be recovered. Sage grass, 
that has been a threatened species. Everybody knows about sage 
grass. Did you know we cannot do projects to recover the 
habitat for that species within the old boundaries of the 
monument? We cannot do recovery projects. That is a classic 
example.
    About 100 yards across the street, basically, we are doing 
recovery projects on BLM rangeland. These projects that are 
happening on BLM rangeland are happening in the same building 
that the monument is managed in. They are the same people. And 
as far as anything changing, you are just changing the 
management from BLM monument staff to BLM Kanab field office 
staff. So, for us to work with those folks, absolutely. I work 
with Harry Barber all the time on a local basis to do good 
recovery projects.
    Mr. Gallego. Thank you. Since you are familiar with the 
National Park Service, I am sure you agree with the NPS under 
the Organic Act that does not manage for multiple uses. In 
fact, this is the very thing you are railing against in your 
testimony, or have railed against, I should say. The NPS 
mission is to protect wildlife and the resources, exactly these 
protections that H.R. 4588 takes away.
    To move on to another question, you told us that your 
county does not have the money to manage the lands within the 
1996 monument boundary. Is that correct?
    Mr. Pollock. Those are Federal lands. We cannot manage 
them. They are managed by the monument staff.
    Mr. Gallego. But you will somehow have the money to manage 
them once they are outside that boundary.
    Mr. Pollock. We are not going to manage them, we are going 
to have input on the management. We work with the people that 
manage them.
    Mr. Gallego. Maybe I misunderstood what you had said 
earlier about the responsibility.
    Mr. Pollock. Yes, you did, because I will tell you, we work 
with the people that work for the BLM on a local level. That's 
government-to-government cooperation.
    Mr. Gallego. If this bill moves forward, the management 
will be turned over to whom? The counties and under a 
management council system. Is that correct?
    Mr. Pollock. Well, you can interrogate me all day long, but 
I will tell you just like this, flat out, we can manage those 
lands a lot better than they have been managed.
    Mr. Gallego. Well, this is actually not an interrogation. 
If this bill moves forward, management will be turned over to 
the counties under a management council system. Is that 
correct?
    Mr. Pollock. Absolutely.
    Mr. Gallego. OK. How much money does your county have in 
the budget to manage three monuments and a national park unit?
    Mr. Pollock. We would not be managing those lands. Your 
BLM, the government's BLM and the Park Service would be 
managing them. The county would not be managing the lands. That 
is like saying, do you want to transfer me that land? Do it 
right now, transfer me that land and I will manage it, I will 
tax it.
    Mr. Gallego. The management shall develop and implement the 
comprehensive----
    Mr. Pollock. Well, let's get back to that question for a 
minute. If you are talking about management----
    Mr. Gallego. I am reclaiming my time, sir. The management 
council shall develop and implement the comprehensive 
management plans for the Escalante Canyons National Park and 
Preserve. What does that mean when the management council shall 
develop and implement the comprehensive management plans? That 
sounds like the local management organization.
    Mr. Pollock. OK. But who owns the land? You do, the BLM 
does. If you want me to manage them and bear the burden of the 
cost, transfer them to Garfield County, we will take them. I 
will tax those lands.
    Mr. Gallego. But, sir, we are talking about the actual text 
of the amendment, and the text of the amendment says----
    Mr. Pollock. Well, we are talking about reality here. The 
reality is the Bureau of Land Management is the one that is 
going to bear the burden of the cost.
    Mr. Gallego. We are moving on here.
    Sir, does Garfield County receive PILT payments to carry 
out vital services such as research, rescue, road maintenance, 
and other kind of services?
    Mr. Pollock. Pennies in lieu of taxes?
    Mr. Gallego. Yes.
    Mr. Pollock. Are you kidding me? On that land, it is 
actually pennies.
    Mr. Gallego. How much do you receive?
    Mr. Pollock. It is not a payment.
    Mr. Gallego. Answer the question, how much do you receive?
    Mr. Pollock. About $830,000 a year.
    Mr. Gallego. $893,189.
    Mr. Pollock. Roughly, give or take, so what is your point?
    Mr. Gallego. Mr. Pollock, you claim that there is no local 
voice when it comes to management of the Grand Staircase-
Escalante National Monument. But isn't it true that there is 
extensive local planning that went into the 1999 management 
plan that did include or did not disinclude a creation of the 
monument advisory committee, a committee that you have served 
on since?
    Mr. Pollock. I am glad you brought that up. There was 
input, but since then, OK, where did the 12 heartbeat rule come 
from? Do you understand that rule? Let me tell you what that 
rule is.
    On 64 percent of the Grand Staircase, the old Grand 
Staircase National Monument, you can only have 12 horse--well, 
6 horse heartbeats and 6 cowboys, 64 percent at one time. That 
was never in the original plan. That was made up by the 
monument staff. OK, 12 heartbeat rule.
    Mr. McClintock. I am loathed to interrupt this, but 
unfortunately, the gentleman's time has expired.
    Mr. Gallego. Thank you. I yield back.
    Mr. McClintock. The Chair recognizes Chairman Bishop.
    Mr. Bishop. This is frustrating. Let me try to get some 
clarity to what you are talking about because you are using the 
same word but you are using it with different definitions.
    Mr. Pollock, if there is a management team, you will come 
up with a management plan, that is how it will develop, 
correct?
    Mr. Pollock. That is correct.
    Mr. Bishop. Will you actually, as a county, then run that 
plan, or will the BLM run the plan?
    Mr. Pollock. The BLM will bear the burden.
    Mr. Bishop. The BLM will also fund the plan?
    Mr. Pollock. Absolutely.
    Mr. Bishop. So, when you are talking about management plan, 
you are talking about coming up with the rules of engagement of 
how the monument will be run. You will not actually be running 
it. The Federal Government will still be running it. And the 
Federal Government will still be paying for it.
    Governor Leavitt, when this was originally established, 
there were 377,000 acres of SITLA lands within the Grand 
Staircase-Escalante National Monument. Were they actually 
covered in the proclamation that President Clinton did?
    Mr. Leavitt. Mr. Chairman, on the day before I pointed this 
out to the President's chief of staff, who made it clear that 
that had not been contemplated, they were not aware of that.
    Mr. Bishop. How long did it take you to work out a deal 
with the administration to try to manage or try to account for 
those acres that were put in there by a proclamation?
    Mr. Leavitt. It was a matter of years.
    Mr. Bishop. At least 2 years, over 2 years. If this had 
been done by congressional action or if this had been done by 
the administration working with the state of Utah, would you 
have solved these problems ahead of time?
    Mr. Leavitt. They certainly would have been solved in 
principle, and it would have happened much more quickly and 
much more efficiently.
    Mr. Bishop. If this new monument is created, Commissioner 
Pollock, it will be right outside the town of Escalante. Is 
Escalante the town that has the greatest financial problems 
going forward within your county?
    Mr. Pollock. Yes, sir. Yes.
    Mr. Bishop. Is Kanab farther away from this new monument 
area than like Panguitch or Escalante in your county?
    Mr. Pollock. Yes, Kanab is down on the southern end of it.
    Mr. Bishop. So, Vicki, let me ask you. When people do 
tourism down in Kanab, because I go through there a lot and I 
spend money, but I am always going to Lake Powell. Kanab is 
also the closest drop-off point to the North Rim of the Grand 
Canyon. So, in your estimation, if there is economic 
development taking place in Kanab, can it all be related to the 
Grand Staircase or is some of it going to Lake Powell, or is 
some of it going to the Grand Canyon?
    Ms. Varela. A big part of Kanab's tourism economy is also 
driven by Zion National Park. Certainly, there would be some 
that would be related to this region, but most of it would be 
the areas that you have highlighted, as well as Zion National 
Park.
    Mr. Bishop. Yes. And, Ms. Hand, to be honest, you can pay 
your employees what you want to, regardless of what the minimum 
wage is. Pay them more money. Governor Leavitt, let me come 
back to you. Is this designation of the national monument done 
in Grand Staircase, is this a one and done, or has this 
happened since that time as well?
    Mr. Leavitt. It has been used repeatedly over the course of 
time in many instances.
    Mr. Bishop. This Committee has passed out a CAP Act, which 
tries to put an established process that would guarantee, 
depending on the size, there would be public involvement before 
the designation, and conversely, if you are going to rescind or 
downsize, there would be public involvement in that as well. Do 
you think that is a wise use of our time and energies?
    Mr. Leavitt. I know of no other circumstance where public 
acts are created, other than The Antiquities Act, where it is 
not required, and where it is not carried out. The Antiquities 
Act is unique, it is wrong, it is not democratic, and it needs 
to change.
    Mr. Bishop. Thank you. I would do one other thing for the 
panel here. Oftentimes, as we had this miscommunication of what 
the term management actually meant, there is also a 
miscommunication of the difference between a national park and 
a national monument. They are different entities. There are 
special interest groups out there that are trying to confuse 
that, as if one is synonymous to the other; they are not.
    As we continue talking about what a park system can do, 
what the BLM to a monument system can do, they are totally 
separate entities and should be recognized as solely separate 
entities. And because I respect this Subcommittee so much, 
because I used to chair it, I have 30 seconds left and I am 
going to yield it back.
    Mr. McClintock. Thank you. The Chair now recognizes Mr. 
Lowenthal. The reason why we are going out of order, by the 
way, is in large part because of flight schedules and other 
concerns today. So, Mr. Lowenthal, 5 minutes.
    Mr. Lowenthal. Thank you, Mr. Chairman. This question is 
for Governor Leavitt. And, first, I want to thank the panelists 
for coming and traveling all the way from Utah to Washington. I 
hope that is not calling us to vote.
    I want to understand, there have been a lot of issues that 
have been raised about the initial legality and the process 
under which President Clinton had done this, and there were 
questions that had been raised in this hearing. I want to make 
clear that right after he issued the proclamation Executive 
Order, we are aware that in the 105th and 106th Congress, that 
Congress ratified these new boundaries. It talked about buying 
out and provided resources to buy out the mineral interests. 
And, Governor, that you signed the land exchanges between the 
state and the Federal Government, pursuant to the Federal law 
that was passed, and that the Federal courts have dismissed all 
claims about the legality, especially in 2004 the Federal 
District Court in Salt Lake City upheld the legality of this 
and dismissed all claims challenging the legality of the 
courts, and that has been upheld in the appeal courts also.
    So, my question to you is, if there were all these 
questions about legality, what did President Bush do about 
this? He followed. Why are we waiting all these years later?
    Mr. Leavitt. Congressman, I don't think for a minute that 
you would defend the level of secrecy that was used in enacting 
public policy in the context of the Grand Staircase.
    Mr. Lowenthal. Thank you. I realize you raise issues about 
that, but I am just talking about the overall legality of this 
and the challenges in the courts you are aware of, and the 
signing, that we must assume for all the courts, that there may 
have been problems in the process that you have raised, but 
this was legally done under The Antiquities Act. And the 
Congress has done it by ratifying those boundaries, and the 
courts have upheld it. Is that not so? That is all I am saying.
    Mr. Leavitt. I acknowledge that some 8 years later and some 
8 years of litigation, the court did conclude that the 
President was within his rights as the Chief Executive to use 
the Antiquities Act.
    Mr. Lowenthal. That is right.
    Mr. Leavitt. Thus, I have argued that The Antiquities Act 
ought to be changed.
    Mr. Lowenthal. Well, that may be true, and I respect that 
opinion. But there have been lots of issues thrown out here 
that this was done for political reasons, it was not legal, it 
overextended his boundaries and the courts have decided, and 
the Congress right after that, have already said that is not 
true.
    Mr. Leavitt. It is hard to argue that this was not done for 
political purposes, that has become evident.
    Mr. Lowenthal. We are politicians. Everything is done for 
political purposes. We appreciate that question, and I grant 
you your right.
    Mr. Leavitt. You asked, Congressman, about the Bush 
administration?
    Mr. Lowenthal. Yes.
    Mr. Leavitt. The Antiquities Act was used in the Bush 
administration. However, there was substantial public input in 
the process. I recognize today is not the day to talk about The 
Antiquities Act, but I am here because this is unfinished 
business for me. I am no longer a public servant, but this 
needs to change.
    Mr. Lowenthal. But those questions were raised in the 
Federal court and the Federal courts did not say they were 
violated.
    Mr. Leavitt. Well, no, but the Federal courts act as a 
matter of interpreting existing law, and I am here arguing that 
bad outcomes come when things misuse appropriate language. This 
was bad policy, and I think what the President recently did was 
enacting a separate policy. And this Committee, by this 
hearing, will have exceeded in proportion any public process 
that went into the Grand Staircase.
    Mr. Lowenthal. I think the courts will have to deal with 
that issue. You are right. Whether in fact the President, or a 
subsequent President, has the right to change previous actions 
in terms of massive change of land for both monuments and other 
Federal lands, and I think that will be a question that the 
courts----
    Mr. Leavitt. I am sure it will. And my point, and I think 
we would agree, that in the halls of Congress we ought not to 
be arguing so much about process and we ought to be arguing 
more about policy. And the President of the United States, in 
this case, changed a policy.
    Mr. Lowenthal. And the Congress agreed with the President, 
and the courts agreed with the President.
    Mr. Leavitt. But this Committee is now considering, in a 
very public and organized, thoughtful way, whether or not lands 
ought to be used in a particular way.
    Mr. McClintock. Thank you. We have been called for votes. 
There are 10 minutes remaining on that clock. That will give us 
time for one more round of questioning, and that will be done 
by Mr. Tipton.
    Then we will recess.
    Mr. Tipton. Thank you, Mr. Chairman. I thank the panel for 
taking the time to be able to be here today. I do have to take 
one issue with Ms. Varela's comment on Utah having the best 
snow on Earth, I think that is in Colorado. But I appreciate 
you being here and your passion on tourism, it is important for 
the state of Colorado as well.
    I have admired Utah's program of what you labeled as the 
Mighty 5. Was there a marketing advantage for you being able to 
say, we have this great portfolio of parks for you to be able 
to visit? Would it enhance, as I read Congressman Stewart's 
bill, to be able to create three more monuments, another 
national park. You would be the Mighty 6, and be adding 
monuments. Would you see that as a plus-up in terms of being 
able to create economic development for the communities that 
probably need, from what it sounds like down in the areas 
around Kanab, over in Escalante, to be able to help those 
communities?
    Ms. Varela. First of all, thank you for the question. I 
will continue the discussion with you afterward about the 
greatest snow on Earth. But to your question, yes. The Mighty 5 
campaign has been nationally recognized as a break-through 
campaign that differentiated Utah in a profound way. That has 
lead to the most successful years of marketing and economic 
benefits that the state has ever experienced from tourism.
    And, yes, having another national park, particularly in 
this remarkable area, would be a huge boon to our economic 
development strategy. The elegance of this is that it is a 
combination of this remarkable asset that has not really been 
accessible for many years, and a remarkable need in these local 
communities that we have talked about that have so much 
economic distress.
    This ribbon of road, 122 miles of the most beautiful road 
on Earth, that the brilliance of proposing this national park 
right in the heart of that road gets me really energized about 
the marketing potential for the next wave of Mighty 5, whether 
it is Mighty 6, and we have a lot of other ideas that I will 
not belabor right now.
    Mr. Tipton. For the clarity of the benefit, perhaps, of 
approaching it as Congressman Stewart's bill would, each of 
these areas does have unique and distinct characteristics that 
you would be able to individually market, but then collectively 
package in terms of promoting tourism and creating jobs?
    Ms. Varela. Yes, that is right. And Susan has made some 
very good points, and I would like to respond to one of them, 
which is that you want every national park to have a unique 
offering, to reflect the local community, its heritage, its 
history, and the unique things that are available in that area.
    Some examples of what we would highlight around this 
national park would certainly be our dark skies. Utah has some 
of the best dark skies on Earth, and we are now being 
recognized for that.
    Dinosaur bones. Paleontology. There is history of 90 
million years of dinosaur bones, some of the best findings on 
Earth. Native American artifacts. Great Mormon heritage. The 
Hole-in-the-Rock Road that goes through the proposed national 
park, is a road that Mormon pioneers travel as they established 
themselves in the area.
    Mr. Tipton. Great. Thank you.
    Ms. Varela. I just want to make one more point to Susan's 
question, there would be a front country that might be very 
accessible, and perhaps a back country, where it would still be 
accessible to backpackers and other uses. But that is the 
beauty of it, being able to design exactly what this should be 
for this region.
    Mr. Tipton. Great. Thank you. Commissioner Pollock, we have 
heard many of the same comments that you have made, 
particularly with regards to sage grass management in the state 
of Colorado as well. I think you provided clarity, as did the 
Chairman as well, in terms of the actual role that the 
commissioners would be able to play. Can you maybe describe a 
little bit of the distinct benefit that you would bring in 
terms of developing that plan?
    Mr. Pollock. Absolutely.
    Mr. McClintock. Actually, this is going to have to be a yes 
or no answer, and the rest will have to be in written response.
    Mr. Tipton. If you can do that for the record, we would 
certainly appreciate it.
    Mr. Pollock. Yes, sir. Thank you.
    Mr. Tipton. Thank you all for taking your time.
    Mr. McClintock. Thank you. I want to apologize to our 
witnesses, we have been called to votes. There are 5 minutes 
remaining on the first vote. I think there are four in this 
series. We would expect to have those votes concluded by about 
11:25. It is an occupation hazard around here, it happens, so 
we will have to recess the hearing until votes have concluded 
at about 11:25. I thank you for your indulgence and patience.
    [Recess.]
    Mr. McClintock. The Subcommittee will reconvene. I, again, 
want to apologize to our witnesses for taking up almost an hour 
of your time on votes, but as I said, it is what we do around 
here.
    The Chair will now continue questions of the panel, and 
resume with the Ranking Member, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. I join in the Chair's 
comments to you, we apologize for the delay. My questions that 
I would like to begin with are, of course, with Ms. Hand.
    Ms. Hand, you said you moved your family to Kanab--is it 
Kanab or Kanab?
    Ms. Hand. Kanab.
    Ms. Hanabusa. Kanab. Two years before President Clinton's 
proclamation. You gave us a description by reading your Op-Ed 
about what it was like when you moved there, and, of course, 
how it is today.
    I was just curious, what was the economic base before you 
moved there that resulted with no service repair shops and 
everything closed down? What was the economic engine for Kanab 
before that?
    Ms. Hand. One unfortunate thing that occurred just about 
the time that we moved to Kanab is that there was a lumber mill 
that was cutting trees on the North Rim of the Grand Canyon 
area, the Kaibab Plateau, not within the park, but with the 
forest there, and that closed. They had used up the old growth 
forest that they were allotted and never retrofitted to cut 
smaller trees, and therefore, closed down. That displaced about 
200 families.
    When we moved to Kanab, the largest employer in the county 
was the public sector, basically government work. The largest 
private employer now in Kanab is the Best Friends Animal 
Sanctuary. When I moved to Kanab, they had 43 employees, but 
they now have over 500. So, they have experienced a tremendous 
growth, and have become a really important part of our economy 
as well.
    I think their choice of--they live in upper Kanab, not 
live, but their sanctuary is placed in upper Kanab Canyon, and 
it is, again, a quality of life and placement for them, a 
delicious place to be for their operation.
    Ms. Hanabusa. Would it be a correct statement that the 
economic base now is tourism related to the Grand Staircase?
    Ms. Hand. Tourism related to the Grand Staircase and to the 
other protected public lands in the area. And I would emphasize 
that, actually, travel and tourism have a long rich history in 
Kanab. There is a biography written by Frederick Swanson about 
a man named Dave Rust, who was born in the 1800s, the father of 
his wife was the mayor of Kanab, and D. Woolley was his name, 
and the two of them set about developing eco-tourism in the 
early part of the last century before there were roads or 
anything really to support that. They went out on horseback or 
with pack mules and explored the area. Dave Rust did that for 
33 years, so he began a long-standing tradition of eco-tourism 
and travel in the area.
    Ms. Hanabusa. Let me ask you. Did you have a chance to 
participate in the initial management planning?
    Ms. Hand. I did, yes, because there were numerous meetings 
held in the different communities that were open to the public, 
and I was actually very impressed with that process. I felt 
like it was a very safe environment for communication that was 
established by the BLM operating these meetings, and that they 
heard diverse voices, and they recorded what they heard in a 
public format.
    And I felt like if you participated in those meetings or 
you wrote in your concerns by letter, that they were 
incorporating that. A really good example is that the 
monument--the public meetings that I attended, many of the 
people asked not to have this monument, which was the first 
managed by the BLM to be managed in a way similar to the Park 
Service where there are exclusive concessions and development 
within the boundaries, and instead, to allow the outside 
communities to develop their businesses to support that.
    That is what we have done. That is how the BLM set it up, 
and I think it has worked very well for those communities.
    Ms. Hanabusa. Thank you. Ms. Varela, I just have a quick 
question for you. Your testimony focused on the three parks 
that are being proposed with, I think you said your scenic 
Route 12 going through it. You did not take a position on the 
``reduction'' in the Grand Staircase. Do you have a position on 
that?
    Ms. Varela. I am not the right person to speak on that 
issue. I have been on the periphery of land use issues my 
entire career. I would defer to people on both sides of that 
issue who have spent their entire working lives trying to solve 
that problem.
    My experience, my expertise, is around tourism. As a result 
of that expertise, I have developed a really good working 
knowledge of our national parks. But I don't pretend to have 
expertise on solving the larger, complex, land use issues that 
come when 65 percent of your land is owned by the Federal 
Government.
    Ms. Hanabusa. Thank you. I yield back.
    Mr. McClintock. Thank you, General Bergman.
    Mr. Bergman. Thank you, Mr. Chairman, and thank you to all 
of you on the panel who took the time to testify here today.
    I would like, for the record, to get into the best snow on 
Earth contest, because living in the middle of the million acre 
Ottawa National Forest in the upper peninsula of Michigan and 
right next door to the Sylvania Wilderness area, I have 
snowmobiles, and I have them for two reasons: (1) primarily, in 
a worst case emergency situation, given the timing, that is our 
only way out; and (2) I like to ride on a beautiful sunny day, 
even though it is 40 degrees below zero--so just know that I am 
in on the snow contest.
    As a kid growing up, I spent all of my time outside. I 
could still live outside. I am married to a lady who prefers to 
live inside, and I understand that, so we have indoor quarters 
here in Washington, DC. But as a boy scout, I had the chance to 
learn, live, and understand by traveling to some of the most 
beautiful parts of the country as a boy scout troop. My 
grandsons, who live in Northern California, are boy scouts, and 
they travel as well.
    Mr. Pollock, could you expand on the restrictions that 
exist that prevent groups of 25 or more from recreating in the 
monument areas?
    Mr. Pollock. Yes, sir. I will give you a good example. It 
doesn't matter what religion that you hold to, we are 
predominately LDS. We have similar programs to visit these 
areas. And down in the Hole-in-the-Rock area, a couple of years 
ago, we had an LDS youth activity where they were trying to 
take 30 or 40 individuals down into that area on the same type 
of trip, and they were forbidden from doing that. They were 
stopped from doing that, and all of that was canceled because 
of the 12 heartbeat issue. You cannot have more than 12 
heartbeats in certain areas of the monument.
    I will give you another example. When I was a kid, my dad 
worked for the Park Service, but I grew in Tropic, that is in 
the monument. Back then, we used to go down on horseback into 
what is in the monument now, down into a remote area, and that 
was traditionally like your boy scouts. That is where they kind 
of made sure that we were on the right track in life. That has 
been prohibited as well.
    And that was not only a function of the local churches, but 
it was also a function that our good old local role models 
carried on for years. That was stopped. So, traditional uses, 
like what you are talking about, have been stopped.
    Mr. Bergman. Not that I am putting words in anybody's 
mouth, but when you have the opportunity to experience a 
national monument, that is more of a didactic learning 
experience as opposed to when you can utilize a national park 
or even a wilderness area, that is an experiential learning for 
people of all ages, but especially the young boys and girls of 
our country, who in many cases did not have a chance to grow up 
in a small town or in rural America. That sense of actually not 
only seeing nature, but being involved with it and feeling it.
    As part of that developmental portion of those very, very 
important years of, let's say, those early teens, with what we 
are proposing here, we are going to have more experiential 
learning, am I right, in going forward with what we are talking 
about here?
    Mr. Pollock. Absolutely, sir. And not only that, a lot of 
that area, you have to realize, it is not like Bryce Canyon, 
back to what I said, 35,000 acres. That land mass was 2 million 
acres. A lot of that land is just regular rangeland that these 
young youthful folks you are talking about should be able to go 
out and experience nature, and go under the BLM rule of 
multiple use.
    But the problem is, when you take that land and you create 
a single use type monument, and that is what it was in a lot of 
areas, no matter what you might hear, that is restricted. And 
that is nonsense to do that on this type of land.
    Mr. Bergman. Thank you. I see my time has expired. I yield 
back.
    Mr. McClintock. Great. Thank you. Commissioner Pollock, 
Devils Tower was 1,200 acres. That was the first national 
monument of a natural phenomenon that was used under the 
Antiquity Act. This was 1.7 million acres. You testified that 
the vast bulk of this is simply open rangeland, is that 
correct?
    Mr. Pollock. That is absolutely correct, sir.
    Mr. McClintock. And how many tourists come each year to 
visit this 1.7 million acres of open rangeland?
    Mr. Pollock. Well, most of it they can't. They will come in 
a 2-wheel drive vehicle, a lot of folks rent a vehicle back 
east or from wherever, and that is inaccessible.
    Mr. McClintock. But my point is, I would assume that the 
major tourist destinations within the monuments are much more 
limited in their scope to essentially the territory identified 
in the Stewart bill, is that correct?
    Mr. Pollock. Yes.
    Mr. McClintock. So, we are setting aside the tourist 
destinations within a permanent designation, but freeing up 
rangeland which really does not attract a lot of tourists. Is 
that essentially what we are doing?
    Mr. Pollock. You are absolutely doing that and that is why 
I support this. You are doing the right thing.
    Mr. McClintock. So, we are not harming tourism. In fact, we 
are protecting tourism. But, at the same time, we are opening 
up the rest of this acreage to actual productive use.
    Mr. Pollock. Absolutely. Not only that, tourism was 
restricted in a lot of that monument. I was told when I was 
voted in as a commissioner, by an assistant monument manager by 
the name of Sarah Slinger--I was trying to promote tourism at 
the time, by the way--and she looked at me, and said, ``the 
monument was not created for tourism.'' If you go back and 
look, it was created for the check science study or something 
like that. Their plan was not to promote tourism. We are going 
to make tourism better. We are not against tourism.
    Mr. McClintock. What is the 12 heartbeat rule you have 
referenced several times?
    Mr. Pollock. That is the remote areas. They have come up 
with that, it is not one part of the management plan that we 
can find, but these agencies that basically have their own 
agendas.
    Mr. McClintock. What is the 12 heartbeat rule?
    Mr. Pollock. That means that if it is a dog, it has a 
heartbeat, you can only take that one dog.
    Mr. McClintock. This is what, per acre?
    Mr. Pollock. No, on 64 percent of that monument, I believe 
the 12 heartbeat rule applies, without some sort of a special 
usage permit that you cannot get.
    Mr. McClintock. Well, General Bergman's point, if you had a 
scout troop of 13 people, that would not be allowed?
    Mr. Pollock. Yes, and if you had a scout troop of 12 and 
they brought their dogs, that would not be allowed either. If 
they rode horses, then that would not be allowed. You cannot 
even take 12 of the scouts down if they are riding a horse. A 
horse is a heartbeat, according to this ridiculous rule that 
they made up.
    Mr. McClintock. Ms. Varela, are the tourist areas that are 
currently designated within the monument boundaries preserved 
under the boundaries of this new act?
    Ms. Varela. The monument is currently more of a drive-thru 
experience than a place that tourists can stop and visit and 
extend their stay. This legislation would create, of course, 
the national park that would guide the tourism experience. That 
would create signage.
    Mr. McClintock. In your view, would that enhance tourism?
    Ms. Varela. Yes. It would definitely enhance tourism.
    Mr. McClintock. Once again, we are not harming tourism with 
that bill, in fact, we are enhancing tourism. But we are also 
opening up vast acreage that has been set off limits for the 
enjoyment of the American people, and for the prosperity of the 
regional economy. Is that correct?
    Ms. Varela. Absolutely. That is a dramatic enhancement of 
tourism and a safer, more defined experience for visitors.
    Mr. McClintock. Commissioner Pollock, you termed PILT 
funding, pennies for dollars. Could you explain that?
    Mr. Pollock. I think we just did the math, actually, after 
the question was posed to me. It is like 26 cents an acre, 
which is what PILT comes out to. I think Garfield County is 3.3 
million acres of Federal land. It is like 26 cents an acre.
    Mr. McClintock. So, you would gladly trade the PILT pennies 
for the many dollars that these lands could generate for the 
economy, for the county, if you were treated the same way as 
most of the counties east of the Mississippi?
    Mr. Pollock. It would make my trip worth it if I come back 
with that news, Congressman.
    Mr. McClintock. My time has expired. Do any Members want to 
do a second round of questioning? Great.
    We have concluded with our questions. There may be 
additional questions that will be submitted to you, we ask that 
you respond in writing. We will keep the hearing record open 
for 10 days in order to receive them.
    Mr. Bishop.
    Mr. Bishop. Governor Leavitt, let me ask one more, just as 
we leave here. As you look back on the history of how you were 
involved in this, is there, in your mind, a clearer way which 
this could have been done better to establish greater input and 
solve some of the problems before the declaration than after 
the declaration?
    Mr. Leavitt. Ironically, the first time I ever heard the 
word monument used, occurred probably 2 years earlier when I 
had a meeting with the Secretary of the Interior to lay out a 
plan or an idea for what we called the Canyons of the Escalante 
National Eco-Region. This was an original idea. The idea was to 
break the land down into different uses and to manage the land 
according to its best and most productive use.
    It would have applied substantially more protection to the 
most pristine of the lands, more than is now extended. Yet, it 
would have kept lands that could have been used, as the 
Chairman suggested, in more productive uses to be used as such. 
That idea was rejected by him, but in the course of a 
conversation, there was a side decision between he and a member 
of his staff, and used the word monument. That did not dawn on 
me at the time. I had no idea that that is what they were 
discussing.
    But to your point, if the state, local, and Federal 
Government had worked together to care for the land in a way 
that was focused on the land and its best use, it could have 
been done collaboratively, it could have been productive, and 
it could have been done successfully. As it is, we have had 8 
years of litigation. We have now had 20 years of conversation, 
and we are continuing to visit it in a divisive way.
    Could it have been done better? Absolutely. But it needed 
to be done in a way that did not involve secrecy, that involved 
the kind of hearing you are having today for that purpose.
    Mr. Bishop. Mr. Chairman, I appreciate that comment, and 
that is why I want to commend Mr. Stewart for the legislation 
that you have here. That is exactly the process we are trying 
to have, going ahead and doing it ahead of time so you solve 
problems first.
    Vicki, you were talking once again about how we do a good 
marketing campaign in Utah on the Big 5, right?
    Ms. Varela. The Mighty 5.
    Mr. Bishop. OK, the Mighty 5--you don't do that well of a 
campaign. We are now talking about having maybe six that can be 
part of that campaign.
    Those five come up to about 830,000 acres combined for all 
five of those. This would be coming down from 1.7 million acres 
to something that could be more manageable and could be part of 
that campaign.
    I also want you to know, there is another potential we have 
up in the northern part of the state, so you can make this from 
six to seven. But as part of that campaign, if you are going to 
do anything in my area, one of the things to market has to be 
the other kinds of activities that are in that area.
    If someone wants to come up to like Golden Spike, as a 
destination point, you also have to be able to say what other 
things are available. We have never been able to do that with 
Grand Staircase-Escalante.
    I think what you were saying, if I have this right, is that 
by going through this process and his bill, we can actually 
come up with something that can be marketable, that can be 
useful, and you keep emphasizing the word safer, which will 
encourage people to actually see this and attend it. And let's 
face it, if there is a reason for this land to exist to be 
seen, it should be seen, and you should do things to incite 
people to see that.
    I think I am hearing that coming from you at all times, 
that we can do better if we try to do it the right way. Bad 
process brings bad results. I think that is what happened in 
1996. But this is a good process that could bring a good 
result. Am I mis-stating you at all?
    Ms. Varela. No. That is actually a very good summary. I 
will just add to that, that what you have just outlined is 
consistent with a strategy that I have just rolled out in the 
state for the vision for our next 10-20 years of Utah tourism. 
It is around quality visitation.
    Offering up something to our customers that is different 
because it is in our beautiful landscapes, but also because we 
have thought through the visitor experience to make sure that 
it is safe, that it is unique, that it is designed consistent 
with what the local communities want to accomplish.
    So, everything that we are talking about with the canyons 
of the Escalante National Park and Preserve is exactly aligned 
with that strategy.
    Mr. Bishop. Thank you. I would like to talk more to Mr. 
Bergman about Mackinac Island, but I am out of time.
    You should realize, the second national park created was 
Mackinac Island, and we gave it back to the state of Michigan 
because you did better stewardship than we were doing. And it 
is still within the state of Michigan, isn't it?
    Mr. Bergman. It is. And, the trivia question for 
Michiganders and anybody else, is Mackinac Island part of the 
upper peninsula or lower peninsula? And it is interesting, the 
rationale. By the way, just to set the record straight, it is 
part of the upper peninsula.
    Mr. McClintock. Yes, but after you have been to Lake Tahoe, 
you really don't care.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Ms. Hand, in addition to ceding management control of the 
three new national parks and a purported national park, one 
that is being proposed, this bill continued a provision to 
transfer the Hole-in-the-Rock Road to the state of Utah, 
further advancing the deeply unpopular Federal lands transfer 
movement. Proposals like this that recently led the Outdoor 
Industry Association to move its annual trade show out of Utah. 
Outdoor recreation is big business in Utah, but it seems like 
Utah politicians are driving a wedge between the industry and 
the state.
    My question to you is, how did you feel when the Outdoor 
Retailer Show pulled out of Utah because of what it perceived 
as its politicians' lack of support for public lands?
    Ms. Hand. Well, I think that it was a great loss for Utah 
in a number of ways. The loss of the Outdoor Retailer Show was 
probably a $50 million loss per year to the city of Salt Lake. 
But the impact of Outdoor Retailer being in Utah for a couple 
of decades is much larger than that because Outdoor Retailer 
branded our state as an outdoor mecca. It has also given a very 
public black eye to our state and the state's outdoor industry, 
I think. There has been discussion of boycott on social media, 
and just in general, a lot of negative press generated by that 
withdrawal of Outdoor Retailer.
    For me, personally, it is a loss because I have always 
really enjoyed taking my staff to Outdoor Retailer, and it will 
be much more expensive and less accessible to us now that it is 
in Denver. It is more than twice the driving time. It is not 
convenient or affordable to fly my staff, in all cases, from 
St. George, which is our nearest airport. It is a couple hours 
drive to get there, so I feel that they have lost an 
opportunity for enrichment, and that the cost of doing business 
for us has greatly increased.
    Ms. Hanabusa. How do you feel that this bill further 
threatens Utah's outdoor recreation economy?
    Ms. Hand. My sense is that people, in many cases, will see 
a new national park, and they think it is a great thing. But I 
think when they visit it, it may not be what they expected. 
And, this is not a national park similar to other national 
parks, or most national parks, that they visited in the West, 
so I think that it may prove a bit of a disappointment or 
create unexpected circumstances for visitors.
    I think also that the negative press that is generated 
through the process of having the monuments torn asunder, while 
knowing that they are incredibly popular with American 
citizens, is damaging also. This is making a lot of headlines, 
it is in the news and people are aware of this issue.
    Ms. Hanabusa. I think you were sort of asked a question 
similar to the one I am about to ask, and that is, do you think 
tourists would feel the same way about Bryce Canyon and Zion 
National Park if locals could hunt and graze their cattle in 
the middle of those national park units with basically no input 
from the National Park Service, because part of this would 
transfer it to the state?
    Ms. Hand. I think it would certainly change the experience, 
and one of my concerns is that this could prove to be a 
slippery slope. How would this impact our parks? As Ms. Varela 
has brought up, the funding for our parks has been in steady 
decline, even while attendance has been steadily increasing. 
The attendance is very difficult to manage in some of our parks 
now, particularly in Arches National Park and Zion National 
Park.
    Ms. Hanabusa. I think Ms. Varela's testimony was that it is 
probably put on us, that we are not funding the National Park 
Service sufficiently, so that is why there is a reduction in 
the ``services that are being rendered.'' I assume that you 
have dealt with the National Park Service yourself in Utah?
    Ms. Varela. Yes.
    Ms. Hanabusa. Am I interpreting what you were saying in 
your testimony correctly, Ms. Varela?
    Ms. Varela. The parks have been severely impacted by the 
lack of funding.
    Ms. Hanabusa. And you are talking about the Federal 
funding, right?
    Ms. Varela. Correct.
    Ms. Hanabusa. Do you agree that it is a loss to Utah that 
this outdoors major convention that has left now with $50 
million a year, is that a correct statement as to how much it 
is worth to Salt Lake City?
    Ms. Varela. The Outdoor Retailer Convention was a wonderful 
part of the tourism economy for many years. We talk about 
failures of policy being about failures to communicate, and I 
think that was a classic example where everybody tried really 
hard to communicate, but no one ever understood each other very 
well.
    Ms. Hanabusa. Thank you. My time is up.
    Ms. Varela. And the reason that I am optimistic about this 
bill is that it is a step toward positive communication.
    Mr. McClintock. We will go to Mr. Stewart and you can 
continue that comment.
    Mr. Stewart. Thank you. Did you have a chance to conclude 
your thought?
    Ms. Varela. I just wanted to say what a positive way I see 
this bill as restarting a conversation around the things that 
we agree on. There have been so many years and years of efforts 
to communicate. And when we look at it in the millions of acres 
category, everyone comes away fairly unsatisfied that their 
point of view has been heard or understood.
    I think that the brilliance of what Congressman Stewart is 
advancing here is to say, let's take 100,000 precious acres 
that we all agree should be preserved and should be visited, 
and let's work together to figure out how we can make that a 
part of our National Park System.
    Mr. Stewart. Thank you. Then, Chairman, again, I will be 
very brief. I know that we have been delayed here somewhat.
    Two things I think we can hit very quickly, and I think, 
Commissioner Pollock, a good friend of mine, and a man that I 
greatly admire, you probably can best answer these questions. 
It has been described that some people would come to this park 
and feel disappointed. Do you agree with that expectation?
    Mr. Pollock. Do you mean the proposed new national park?
    Mr. Stewart. The proposed national park, yes. Do you think 
that landscape out there would disappoint people?
    Mr. Pollock. Absolutely not. I think you are doing the 
right thing here. You are trying to give an area the 
infrastructure so people can actually visit it, they can't 
right now. I am sorry, the services are not there.
    And it brings up a good point, as well. The emergency 
services, the county does that. We do that, so we have to go 
out and get these folks when there is no signage, back to the 
Hole-in-the-Rock Road, you can hardly get down that road. We 
are not allowed to maintain it. In a park setting, like Bryce 
Canyon, for example, this is the perfect solution to this 
problem. Yes.
    Mr. Stewart. And having been to that area many times, I 
have never been disappointed in a visit there. It is 
spectacular scenery and it is something that is worthy of a 
national park, no doubt. Very quickly, and again, Commissioner, 
you are probably best to answer this. Does the monument at this 
point allow for hunting? It does, doesn't it?
    Mr. Pollock. It does, yes, sir.
    Mr. Stewart. So, this does not change that status at all. 
We would preserve those hunting rights within the park, and we 
have been able to manage any conflicts, whether it is a 
monument, we could certainly manage any conflicts between 
tourists and those who are hiking and people who are hunting as 
well, wouldn't you agree?
    Mr. Pollock. I agree. That is correct.
    Mr. Stewart. OK. Thank you. I will just conclude with this. 
Again, to my friend, Mr. McClintock, and to Chairman Bishop. 
Thank you for allowing us and considering this bill. We have 
tried to do something where you didn't have a winner and you 
didn't have a loser. We genuinely created a situation where 
both sides had something that they wanted and could claim as a 
victory, where we really did have a win-win and it protected 
families and communities, it protected the western culture.
    Thank you for your support of this bill. And, Chairman, I 
yield back.
    Mr. McClintock. Thank you.
    General Bergman. Oh, OK.
    Governor Leavitt, let me just close with one final question 
on The Antiquities Act. You said we need to make changes in it, 
but The Antiquities Act seems to me to be fairly clear. The 
President has authority to designate national monuments on 
Federal lands that contain ``historic landmarks, historic and 
prehistoric structures, or other objects of historic or 
scientific interest.'' And it goes on to limit that, saying 
that it must be confined to the smallest area compatible with 
proper care and management of the objects to be protected. The 
seizure of 1.7 million acres hardly seems to fit that 
definition in The Antiquities Act.
    Obviously, we have presidents who have given a different 
interpretation to it. And as Mr. Lowenthal pointed out, courts 
have given a different interpretation to it, but I don't know 
how much clearer we can make the language.
    Mr. Leavitt. The language is clear, to my reading. However, 
it seems insufficiently clear to the courts and to the 
executive branch to constrain it to good judgment. And, 
obviously, there would be need for more precision. I will leave 
that to you as to how that should be done. But the language as 
it stands is not producing a good policy outcome.
    Mr. McClintock. I wonder when the Constitution grants to 
Congress the sole prerogative over the management of the public 
lands for the Congress then to cede such authority to the 
executive, I think is questionable constitutionally. It is 
certainly contrary to the architecture of the Constitution, and 
invites the kind of abuse of power that brings us all here 
today to try to correct.
    Mr. Leavitt. Agreed.
    Mr. McClintock. That now concludes all of our questions.
    Again, I want to thank all of you for joining us and for 
your time today.
    If there is no further business to be brought before the 
Committee, the Subcommittee stands adjourned.

    [Whereupon, at 12:03 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Grijalva Submissions

    --Letter to Chairmen Bishop and McClintock and Ranking 
            Members Grijalva and Hanabusa from Southern Utah 
            Wilderness Alliance, dated December 13, 2017.

    --National Parks Conservation Association--Position for the 
            House Natural Resources Subcommittee Hearing on 
            December 14, 2017, dated December 13, 2017.

    --Letter addressed to Chairmen Bishop and McClintock and 
            Ranking Members Grijalva and Hanabusa from The 
            Trust for Public Land, dated December 13, 2017.

    --Letter addressed to Chairmen Bishop and McClintock and 
            Ranking Members Grijalva and Hanabusa from 
            community dated December 13, 2017.

Rep. Hanabusa Submissions

    --State of Utah Exchange Patent No. 19232.

    --H.R. 3910 Sec. 201 original map.

    --Letters to Chairman Bishop and Ranking Member Grijalva 
            from more than 734 in opposition of the monument 
            designation.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
